      Department of Homeland Security





      Management Letter for the FY 2011 DHS Financial 

       Statements and Internal Control over Financial 

                     Reporting Audit 





OIG-12-42                                    February 2012

                                                            OffiCi! of Inspector Genera/

                                                            U.S. Departmenl of Homela nd Security
                                                            Washinglon, DC 20528




                                                           Homeland
                                                           Security
                                           FEB 24 1011

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (010) was
established by the Homeland Security Act 0/2002 (Public Law 107-296) by amendment
to the Illspec/or General Act of 1978. This is one ofa seri es of audit, inspection, and
special repons prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report presents the management letter for DHS' FY 201 1 financial statements audit.
It contains 93 financi al management comments related to internal control deficiencies
and makes 176 recommendations. These deficiencies were not required to be reported in
the financial statement audit report dated November II , 201 1. The independent publi c
accounting finn KPMG LLP (KPMG) perfonned the audit ofDHS' FY 2011 financial
statements and prepared thi s management letter. Material weaknesses and other
significant deficiencies were reported, as required, in KPMG 's Independent Auditors '
Report, dated November 1 t, 20 II , which was included in the FY 201 1 DH S AI/I/ual
Financial Report. KPMG is responsible for the attached management letter dated
January 3 1, 2012, and the conclusions expressed in it. We do not express opinions on
DHS' financial statements or internal control , or provide conclusions on compliance with
laws and regulations.

The observations herein have been discussed in draft with those responsible for
implementing corrective actions. We trust thi s report will result in more effective,
efficient, and economical o perations. We express our appreciation to all of those who
contributed to the preparation of this report.


                                             !lwv~/f.4..A
                                             Anne L. Richards
                                             Assistant Inspector General for Audits
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




January 31, 2012


Office of Inspector General and Chief Financial Officer,
U.S. Department of Homeland Security,
Washington, DC

Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2011 and the related statement of custodial activity for the year
then ended (referred to herein as the “fiscal year (FY) 2011 financial statements”). The objective
of our audit was to express an opinion on the fair presentation of these financial statements.
We were also engaged to examine the Department’s internal control over financial reporting of
the balance sheet as of September 30, 2011, and statement of custodial activity for the year then
ended, based on the criteria established in Office of Management and Budget, Circular No.
A-123, Management’s Responsibility for Internal Control, Appendix A.

Our Independent Auditors’ Report issued on November 11, 2011, describes a limitation on the
scope of our audit that prevented us from performing all procedures necessary to express an
unqualified opinion on DHS’ FY 2011 financial statements and internal control over financial
reporting. In addition, the FY 2011 DHS Secretary’s Assurance Statement states that the
Department was unable to provide assurance that internal control over financial reporting was
operating effectively at September 30, 2011.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance. In accordance with
Government Auditing Standards, our Independent Auditors’ Report, referred to in the paragraph
above, included internal control deficiencies identified during our audit, that individually, or in
aggregate, represented a material weakness or a significant deficiency.

We also noted certain matters involving internal control and other operational matters that are
less severe than a material weakness or a significant deficiency, and consequently are reported
separately to the Office of Inspector General (OIG) and DHS management in this letter. These
comments and recommendations, all of which have been discussed with the appropriate
members of management, are intended to improve internal control or result in other operating
efficiencies. Sections I through X of this letter provide our observations for your consideration,
and have been indexed in the table of Financial Management Comments beginning on the




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Office of Inspector General and Chief Financial Officer
U.S. Department of Homeland Security
January 31, 2012
Page 2 of 2


following page. The disposition of each internal control deficiency indentified during our
FY 2011 audit – as either reported in our Independent Auditors’ Report, or herein – is presented
in Appendix A. The status of internal control deficiencies identified during our FY 2010 audit is
presented in Appendix B. Our findings related to information technology systems security have
been presented in a separate letter to the OIG and the DHS Chief Information Officer.

DHS’s written response to our comments and recommendations, presented in Appendix C, has
not been subjected to auditing procedures and, accordingly, we express no opinion on it.

We would be pleased to discuss these comments and recommendations with you at any time.
This report is intended for the information and use of DHS’ management, the DHS Office of
Inspector General, the U.S. Office of Management and Budget, the U.S. Congress, and the
Government Accountability Office, and is not intended to be and should not be used by anyone
other than these specified parties.

Very truly yours,
                                 Department of Homeland Security
                             Table of Financial Management Comments
                                        September 30, 2011

              TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)

Section/Component
           Comment
           Reference   Subject                                                               Page(s)

 I    Customs and Border Protection (CBP)                                                     5-14
          FMC 11-01 Certification of Refund and Drawback Payments
          FMC 11-02 Insufficient Retention Period for Documents that Support Drawback
                      Claims
          FMC 11-03 Automated Commercial System Deficiency over the Accumulation of
                      Accelerated Payments Against a Drawback Bond
          FMC 11-04 Lack of Controls over Timely Processing of Goods and Services Received
          FMC 11-05 Weaknesses in the Monitoring and Review Process over Fines, Penalties,
                      and Forfeiture Cases
          FMC 11-06 Lack of Implementation of Controls over Determining Classification of
                      Leases
          FMC 11-07 Weaknesses in the Review of Weekly Entry Edit/Exception Reports
          FMC 11-08 Lack of Evidence of Review of the Drawback Auto/Deemed Liquidation
                      Alert Report
          FMC 11-09 Deficiencies in the Public Financial Disclosure Reporting Process
          FMC 11-10 Deficiencies in the Performance Management Program
          FMC 11-11 Weaknesses in Controls over Automated Journal Entries
          FMC 11-12 Weaknesses in Controls over the Bond Sufficiency Review Process
          FMC 11-13 Incorrect Use of CBP Overtime Scheduling System Codes
          FMC 11-14 Lack of Formal Process for Determining Required Supervisory Reviews
          FMC 11-15 Deficiencies over Monitoring of Ethics Requirements
          FMC 11-16 Incomplete Undelivered Orders (UDOs) Quarterly Review
          FMC 11-17 Weaknesses in the Trade Compliance Measurement Program
          FMC 11-18 Untimely De-obligation of UDOs and Monitoring of Period of
                      Performance
          FMC 11-19 Weaknesses in CBP’s Payroll Reconciliation Process
          FMC 11-20 Insufficient Review of Manual Journal Entries
          FMC 11-21 Deficiencies in the Review of the Department of Labor Chargeback
                      Report

 II   Federal Emergency Management Agency (FEMA)                                             15-26
          FMC 11-01 Deficiencies in Development and Application of Policies Related to the
                      Non-Grant, Non-Mission Assignment, Non-System-Generated Accounts
                      Payable Accrual
          FMC 11-02 Inability to Closeout Assistance to Firefighter Grants
          FMC 11-03 Deficiencies in Development of Mission Assignment Policies and
                      Procedures
          FMC 11-04 Lack of Certain Documentation Related to Compliance with the Improper
                      Payments Elimination and Recovery Act of 2010
          FMC 11-05 Inability to Link Systems to Significant Grant Programs
          FMC 11-06 Deficiencies in the Preparation and Review of the Government
                      Accountability Office (GAO) Financial Audit Manual 2010 – Checklist
                      for Federal Accounting
          FMC 11-07 Inaccuracy of Claims’ Loss Reserves at Selected Insurance Companies
                      that Participate in FEMA’s National Flood Insurance Program (NFIP)
          FMC 11-08 Internal Control Deficiencies over Claims Paid at Selected Insurance
                      Companies that Participate in FEMA’s NFIP
          FMC 11-09 Deficiencies in the Monthly Spend Plan Reconciliation Preparation


                                                  1

                                  Department of Homeland Security
                              Table of Financial Management Comments
                                         September 30, 2011

                        Process
          FMC 11-10     Deficiencies Identified in the General Ledger Chart of Accounts and
                        Transaction Codes
          FMC 11-11     Improvements Needed in Review and Recording of Year-end Mission
                        Assignment Accrual
          FMC 11-12     Improvements Needed in Management’s Review of Grant Data and
                        Automated Reconciliations in Grant Accrual Models
          FMC 11-13     Issues Identified in Journal Voucher (JV) Testwork
          FMC 11-14     Lack of Supporting Documentation for Prompt Payment Sample Item
          FMC 11-15     Deficiencies in Verification and Collection of Performance Measurement
                        Data for the Annual Financial Report’s (AFR) Management’s Discussion
                        and Analysis
          FMC 11-16     Deficiencies in the Legacy FEMA Grant Accrual Methodology
          FMC 11-17     Deficiencies over the NFIP Treasury Information Executive Repository
                        JV Adjustments
          FMC 11-18     Lack of Communication Regarding the Existence of the DHS Office of
                        Inspector General (OIG) Fraud Hotline

III   Federal Law Enforcement Training Center (FLETC)                                             27
          FMC 11-01 Capitalization of Property, Plant, and Equipment (PP&E)

IV    United States Citizenship and Immigration Services (USCIS)                                 28-30
          FMC 11-01 Deficiencies in the Timely Recording of Capital PP&E
          FMC 11-02 Lack of Policies and Procedures over Non-Itemized Invoices for PP&E
          FMC 11-03 Inadequate and/or Inconsistent Supervisory Review of Personnel Actions
          FMC 11-04 Inadequate Supervisory Review of the Intra-Departmental Eliminations
                         Reconciliation
          FMC 11-05 Inadequate Documentation and Untimely Capitalization of Internal Use
                         Software (IUS)

V     Immigration and Customs Enforcement (ICE)                                                  31-36
         FMC 11-01 Failure to Record Payroll Accrual
         FMC 11-02 General Journal Entry Not Approved by Office of Financial Management
                      Director
         FMC 11-03 Inadequate Internal Controls over Tracking and Removing Accumulated
                      Depreciation in Sunflower Asset Management System
         FMC 11-04 Process for Identifying Contract-type Obligations for Contract Closeout is
                      Delayed
         FMC 11-05 Inadequate Internal Controls over Tracking Leasehold Improvement
                      Projects
         FMC 11-06 Untimely Recording of Capitalized Asset Disposals
         FMC 11-07 Reimbursable Agreements Not Timely Approved by Budget Officer
         FMC 11-08 Contracting Officer has Access to Approve Invoices in Federal Financial
                      Management System (FFMS)
         FMC 11-09 Incorrect Federal Employees Group Life Insurance Deduction
         FMC 11-10 Untimely Review of Office of Government Ethics 278 Forms
         FMC 11-11 Insufficient Documentation for Federal Employees’ Compensation Act
                      Claims
         FMC 11-12 Inadequate Controls over New Hire Ethics Briefings
         FMC 11-13 Subject to Availability of Funding Agreements not Obligated in FFMS at
                      Outset of Agreement
         FMC 11-14 Ineffective Internal Controls over Leave Audit Process
         FMC 11-15 ICE Does Not Accrue Capitalized Costs Incurred at Year-end for
                      Software and Leasehold Improvement Projects



                                                    2

                                   Department of Homeland Security
                               Table of Financial Management Comments
                                          September 30, 2011

           FMC 11-16     Inadequate Internal Controls over Tracking of IUS Projects

VI     National Protection and Programs Directorate (NPPD)                                     37-38
           FMC 11-01 Inadequate Internal Controls over Reporting of Government Furnished
                         Equipment Asset Disposals
           FMC 11-02 Subject to Availability of Funding Agreements Not Obligated in FFMS at
                         Outset of Agreement
           FMC 11-03 Inadequate Internal Controls over Reporting of IUS Projects
           FMC 11-04 Inadequate Internal Controls over Reporting of Equipment
           FMC 11-05 Untimely Reporting of Leasehold Improvements

VII    Science & Technology Directorate (S&T)                                                   39-40
           FMC 11-01 Inadequate Internal Controls over Reporting of Construction in Progress
                        and Buildings
           FMC 11-02 Untimely De-obligation of UDOs
           FMC 11-03 Inadequate Controls over New Hire Ethics Briefings
           FMC 11-04 Insufficient Internal Controls to Ensure Timely Reporting of IUS in
                        Development and Personal Property

VIII   Transportation Security Administration (TSA)                                             41-49
           FMC 11-01 Employee Record Management and Compliance with Human Resource
                        Related Laws
           FMC 11-02 Accrued Payroll Controls
           FMC 11-03 Ineffective Controls over the Time and Attendance Process
           FMC 11-04 GAO Checklist
           FMC 11-05 UDO Process
           FMC 11-06 Review of Journal Entries
           FMC 11-07 Accounts Payable Process
           FMC 11-08 Travel Authorization Approval
           FMC 11-09 UDOs Documentation
           FMC 11-10 Non-Compliance with the Debt Collection Improvement Act of 1996
           FMC 11-11 Lease Accounting and Disclosure
           FMC 11-12 Accounting for Advances and Prepayments
           FMC 11-13 UDOs Documentation – Federal Air Marshals

IX     United States Coast Guard (USCG)                                                         50-53
           FMC 11-01 Financial Management Oversight
           FMC 11-02 Accrued Payroll and Unfunded Leave Accrual
           FMC 11-03 Financial Disclosure Reports
           FMC 11-04 Operating Materials and Supplies
           FMC 11-05 Human Resources Compliance with Laws and Regulations
           FMC 11-06 Actuarial Medical Liabilities

 X     Consolidated (CONS)                                                                      54-56
          FMC 11-01 Departmental Standards of Conduct and Procedural Guidance for
                       Financial Disclosure Report Filing
          FMC 11-02 Untimely Filing and Review of SF-278 Financial Disclosure Reports
          FMC 11-03 Preparation and Review of the Special-Purpose Financial Statements and
                       Notes
          FMC 11-04 Findings Related to the Disbursement Process




                                                      3

                               Department of Homeland Security
                           Table of Financial Management Comments
                                      September 30, 2011


                                        APPENDIX
Appendix   Subject                                                                      Page(s)

   A       Crosswalk – Financial Management Comments to Active Notices of Finding and   57-63
           Recommendation (NFRs)
   B       Status of Prior Year NFRs                                                    64-70
   C       Management Response to the Management Letter                                  71




                                               4

                                                                                        Section I
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


I.     CUSTOMS AND BORDER PROTECTION (CBP)

CBP – Financial Management Comment (FMC) 11-01 – Certification of Refund and Drawback
Payments (Notice of Finding and Recommendation (NFR) No. CBP 11-01)

       In the event that the Chief/Supervisor does not certify a payment, the Automated Commercial
       System (ACS) is defaulted to automatically indicate that the Port Director certified a given
       payment, without the Port Director’s actual certification. CBP has designed and implemented a
       mitigating control to manually review, verify, and certify payments on the Check Proof Listing;
       however, this control was not codified in the Standard Operating Procedures (SOPs).

       Recommendation:
       We recommend that CBP publish the ACS Refund Certification Procedures, which will provide
       the necessary guidance to the field to ensure all necessary verifications are completed prior to
       issuance of a payment.

CBP – FMC 11-02 – Insufficient Retention Period for Documents that Support Drawback Claims
(NFR No. CBP 11-02)

       According to the Code of Federal Regulations (CFR), claimants are required to retain
       documentation related to a drawback claim for three years from the date of payment. However,
       there are several situations that could extend the life of the drawback claim well beyond those
       three years. For example, a protest on the underlying consumption entries that are associated
       with a drawback claim may require an extension, thus the claimant may not be retaining
       supporting documentation for the extended amount of time. Also, the language of the CFR is
       ambiguous, “…3 years after payment of such claims…” leaves open to interpretation whether the
       three years begins on the date of the accelerated payment (if any), or the payment at final
       liquidation (if any). Based on review of CBP’s mission action plan, CBP is continuing to make
       progress on correcting this condition; however, remediation has not been completed during fiscal
       year (FY) 2011.

       Recommendation:
       Although the document retention period for drawback is a statutory requirement set by Congress,
       we recommend that CBP propose a change to the United States Code; which would require trade
       support and Congressional approval.

CBP – FMC 11-03 – Automated Commercial System Deficiency over the Accumulation of
Accelerated Payments Against a Drawback Bond (NFR No. CBP 11-03)

       ACS does not properly account for the bond sufficiency of claims that involve a continuous bond.
       Specifically, the automated control that prevents a claimant from exceeding the bond amount on
       file is not operating effectively. As a result, CBP will not have sufficient surety against a
       drawback over claim. Additionally, manual procedures are not in place to ensure the sufficiency
       of bonds.




                                                   5

                                                                                          Section I
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2011


       ACS remains the system of record for drawback claims and bonds. In FY 2011, there has not
       been a program change within ACS or a manual procedure put in place to ensure the sufficiency
       of bonds.

       Recommendation:
       We recommend that CBP develop a compensating control that will address this noted system
       deficiency to ensure the Agency’s financial risk exposure is minimized.

CBP – FMC 11-04 – Lack of Controls over Timely Processing of Goods and Services Received
(NFR Nos. CBP 11-10 and 11-10b)

       During test work as of March 31, 2011, we reviewed a statistical sample of 271 operating expense
       type transactions. In 17 transactions, the receipt of goods or services was not recorded in the
       proper period.

       Contracting Officer’s Technical Representatives (COTRs) and goods receivers did not
       consistently enter goods receipt and service entry sheets timely into Systems, Applications, and
       Products (SAP), CBP’s financial reporting system. As a result, at year-end, CBP must estimate
       accounts payable (A/P) for goods or services received, but not entered into SAP. Although this
       estimation process is typically accurate, as evidenced by the search for unrecorded liabilities
       performed by CBP at the beginning of each fiscal year, CBP lacked controls over the process of
       recording the receipt of goods and services timely throughout the year.

       In order to capture goods receipt and service entries not entered timely, CBP used both workflow
       messages and an on-demand SAP “parked invoice” report available to all receiving officials. A
       workflow message is sent to the goods receiver when an invoice is input into SAP without a
       corresponding goods receipt. In addition, if this message is not addressed within five days, a
       subsequent message is sent to a budget official. CBP’s Commercial Accounts Section works the
       “parked invoice” report weekly and corresponds with program offices to resolve open items. In
       addition, CBP headquarters program level officers are provided the “parked invoice” report on a
       monthly basis, which allows them to monitor the items outstanding for their program office.
       These officials are responsible for distributing the report to their subordinate offices for action
       and implementing varying levels of review procedures to ensure items are resolved. However,
       these procedures are not performed until after the receipt of an invoice, which is typically after
       the receipt of goods or services.

       During test work as of July 31, 2011, we reviewed a statistical sample of 243 operating expense
       type transactions. In 21 transactions, the receipt of goods or services was not recorded in the
       proper period.

       During testwork as of September 30, 2011, we reviewed a statistical sample of 127 operating
       expense type transactions. In 16 transactions, the receipt of goods or services was not recorded in
       the proper period.




                                                    6

                                                                                        Section I
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


       Recommendations:
       We recommend that CBP:
       •	 Continue outreach efforts that provide guidance to receiving officials through conference call,
          newsletters, etc.
       •	 Monitor the results of the annual Self Inspection worksheets to determine additional training
          needs.
       •	 Provide program offices with tools to monitor receiving progress, which include:
           - Monthly “Parked Invoice” Report
           - Weekly review of parked invoices by the National Finance Center (NFC).
       •	 Issue guidance targeted at Contracting Officers (CO) and COTRs that includes the timely
          receipt, testing and acceptance of supplies and services.
       •	 Develop a strategy to communicate the implementation of the guidance to individuals
          responsible for the timely receipt of supplies and services.

CBP – FMC 11-05 – Weaknesses in the Monitoring and Review Process over Fines, Penalties, and
Forfeiture Cases (NFR No. CBP 11-11)

       For two of the eleven selected Ports of Entry, the Fines, Penalties, and Forfeiture (FP&F) Office
       was unable to provide evidence that the F05, Action Due Report, was generated and reviewed for
       the weeks selected for testing.
       •	 At one location, the Port was unable to provide copies of the F05 report for one of the two
           weeks selected for testwork.
       •	 At one location, the Port was unable to provide copies of the F05 report for the two weeks
           selected for testwork.

       Recommendation:
       We recommend that CBP utilize the auto distribution mechanism, created by the Fines, Penalties,
       and Forfeitures Division, that distributes, via email, individualized F05 Action Due Reports on a
       weekly basis to each respective FP&F officer to review and monitor cases, and track cases
       nearing the statute of limitations.

CBP – FMC 11-06 – Lack of Implementation of Controls over Determining Classification of Leases
(NFR No. CBP 11-12)

       CBP does not have a formal requirement to retain documentation to support the evaluation of all
       leases as operating or capital. Therefore, there is no clear auditable documentation evidencing
       how CBP determines if a lease should be classified as capital or operating for all lease types.

       Recommendations:
       We recommend that the Office of Administration (OA) - Asset and Administrative Management
       Division (AAMD) work with OA - Financial Operations, OA - Procurement, and the NFC in the
       development of materials, such as the personal property leasehold classification checklist
       (currently being worked on through the NFC). Additionally, OA - AAMD should work with OA
       - Financial Operations, OA - Procurement, and the NFC to develop processes and procedures to
       require documents (such as leasehold agreements, and the classification checklist) to be uploaded
       into SAP.



                                                   7

                                                                                         Section I
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


CBP – FMC 11-07 – Weaknesses in the Review of Weekly Entry Edit/Exception Reports (NFR No.
CBP 11-13)

       During testwork performed at eleven statistically selected Ports of Entry, the following instances
       of non-compliance with CBP Directive 5610-006A, Entry Deletion and Entry or Entry Summary
       Cancellation, and CBP Directive 5610-004B, Resolving Certain ACS Exception and Error
       Reports, were noted:
       •	 Evidence that the issues on the reports were resolved according to the applicable Directive
           could not be verified for the following:
            - B06, ACS List of Rejected/Cancelled Entries Report, at one port.
            - S21, Cargo Selectivity Weekly Selectivity Delete Report, at one port.
       •	 Proper segregation of duties could not be confirmed at one port related to the review of
           deleted entries on the S21 Report.

      Recommendations:
      We recommend that CBP:
      •	 Reinforce the importance of the requirements of CBP Directive 5610-004B published
          September 24, 2009, through written communications and, if necessary, targeted efforts at
          non-compliant ports to ensure that the B06 report is being reviewed in accordance with
          established policy.
      •	 Reinforce the importance of the requirements of CBP Directive 5610-006A published June
          10, 2011, through written communications and, if necessary, providing targeted training to
          ensure that the S21 is properly reviewed and verified by the appropriate CBP officials.

CBP – FMC 11-08 – Lack of Evidence of Review of the Drawback Auto/Deemed Liquidation Alert
Report (NFR No. CBP 11-14)

       During testing at the drawback centers, a sample of thirty Drawback Auto/Deemed Liquidation
       (D28) Alert Reports was selected across all four centers for review. Eight instances were
       identified in which evidence of review of the D28 Alert Reports could not be verified.

      Recommendations:
      We recommend that CBP:
      •	 Update the drawback policy with more specific guidance on how to review and resolve items
          on the D28 report.
      •	 Reinforce the importance of reviewing the D28 report by issuing written communications to
          each of the drawback centers.

CBP – FMC 11-09 – Deficiencies in the Public Financial Disclosure Reporting Process (NFR No.
CBP 11-17)

      During testwork over a sample of 45 employees who filed SF-278, Executive Branch Personnel
      Public Financial Disclosure Reports, in FY 2011, the following deficiencies were identified:
      •	 Three incumbent employees did not file SF-278s by the June 15, 2011, extended deadline or
         the employee’s further extension, if granted.
      •	 One new employee did not file the SF-278 within 30 days of their date of hire.



                                                   8

                                                                                        Section I
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2011


      •	 Evidence of completion for one employee’s SF-278 was unable to be provided.
      •	 Nineteen of the SF-278s were not reviewed within 60 days of the date of filing.

      Recommendation:
      We recommend that CBP ensures all employees who need access to Financial Disclosure
      Management (FDM) are granted proper access prior to the FY 2012 filing date. In addition,
      ensure that FDM is properly implemented to facilitate timely review of the SF-278s.

CBP – FMC 11-10 – Deficiencies in the Performance Management Program (NFR No. CBP 11-18)

      During testwork over a sample of 45 Senior Executive Service (SES) performance plans, the
      following deficiency was identified:
      •	 One employee did not complete an initial or a progress review.

      During testwork over a sample of 45 non-SES supervisory employee performance and appraisal
      plans, the following deficiencies were identified:
      •	 Evidence of completion for one employee’s performance and appraisal plan was not received
          at the time of testwork.
      •	 Evidence of completion for two employees’ goal setting sections of the performance and
          appraisal plans were not received at the time of testwork.
      •	 One employee’s mid-year review meeting did not occur and a reasonable explanation was not
          provided.
      •	 One employee did not complete meetings at goal setting or mid-year due to an extended
          detail.
      •	 One employee did not complete a mid-year review due to an extended detail.
      •	 One employee did not complete goal setting timely due to an extended detail.

      Recommendations:
      We recommend that CBP:
      •	 Issue a reminder to managers and employees to follow current policies and procedures when
         conducting the performance management process.
      •	 Review current policies and develop new policies, as necessary, over the performance
         management process, including procedures for employees on extended detail.

CBP – FMC 11-11 – Weaknesses in Controls over Automated Journal Entries (NFR No. CBP 11­
19)

      In FY 2011, CBP developed SOPs for submitting SAP Change Requests and reviewing SAP
      automated general ledger postings. However, the SOPs are not adequately designed to determine
      whether all types of posting changes are successfully implemented.

      Additionally, at the time of testing, evidence of review and approval of the SAP posting logic
      change made in FY 2011 was not available.




                                                  9

                                                                                        Section I
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


      Recommendation:
      We recommend that CBP revise its operating procedures to expand documentation requirements
      confirming the posting logic changes were correctly made to SAP along with a standard approval
      process.

CBP – FMC 11-12 – Weaknesses in Controls over the Bond Sufficiency Review Process (NFR No.
CBP 11-20)

       During testwork performed over the bond sufficiency process, one insufficient bond was
       identified on the BNLNOV2 Bond Sufficiency Report for the month of July 2011, which
       remained “valid” in ACS and an insufficient bond letter was never sent to the importer.

      Recommendation:
      We recommend that the CBP Bond Team compare importer numbers instead of importer names
      when checking for duplications.

CBP – FMC 11-13 – Incorrect Use of CBP Overtime Scheduling System Codes (NFR No. CBP 11­
21)

       During testing performed over a sample of 33 CBP Officer timecards, the CBP Overtime
       Scheduling System Codes (COSS) codes used by three CBP Officers did not correspond to the
       duties performed by the CBP Officer on the selected day.

      Recommendations:
      We recommend that CBP:
      •	 Review current policies to determine effectiveness and revise policies as necessary.
      •	 Increase communication and training to ensure employees have an appropriate understanding
          of the use of COSS codes in relationship to their responsibilities.
      •	 Ensure proper codes are in place when employees change roles.

CBP – FMC 11-14 – Lack of Formal Process for Determining Required Supervisory Reviews (NFR
No. CBP 11-22)

       CBP lacks a formal process to identify all drawback claims requiring supervisory review.
       Specifically, there is no formal report or list of all claims requiring supervisory review and,
       therefore, supervisors must rely on Drawback Specialists to properly flag claims requiring review.
       Additionally, CBP cannot determine if all required supervisory reviews have been completed.

      Recommendation:
      We recommend that CBP develop procedures to ensure completeness over supervisory reviews
      until a fully automated system is in place to process claims electronically.

CBP – FMC 11-15 – Deficiencies over Monitoring of Ethics Requirements (NFR No. CBP 11-23)

       During testwork over a sample of 45 new employees in FY 2011, evidence of completion for
       ethics training related to 17 employees was not provided in a timely manner; therefore, we were
       unable to perform testwork over these sample items.


                                                  10

                                                                                        Section I
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011



       During testwork over a sample of 45 public filer and covered employees, evidence of completion
      for ethics training related to one employee was not provided in a timely manner; therefore, we
      were unable to perform testwork over this sample item.

      Recommendations:
      We recommend that CBP:
      •	 Develop a centralized tracking system to ensure employees are complying with ethics
         requirements.
      •	 Develop a document retention policy to ensure evidence of completion of ethics training is
         readily available.

CBP – FMC 11-16 – Incomplete Undelivered Orders (UDOs) Quarterly Review (NFR No. CBP 11­
24)

      During testing performed over the June quarterly UDO certifications, the following deficiencies
      were identified:
      •	 Two certifications were not submitted to the NFC to signify a review was completed and no
         follow-up was performed.
      •	 Two certifications were submitted after the 21 day period.
      •	 Eight certifications incorrectly referenced the directive used to perform the review and/or did
         not reflect the correct review period per Directive 1220-011D, Reviews of Unliquidated
         Obligations and Open Goods/Services Receiving Records.
      •	 Three certifications were submitted prior to the end of the third quarter without an explanation
         as to why the early submission was appropriate.

      Recommendation:
      We recommend that CBP coordinate with program offices to ensure timely and accurate
      submission of the quarterly UDO certifications.

CBP – FMC 11-17 - Weaknesses in the Trade Compliance Measurement Program (NFR No. CBP
11-26)

      During testing performed at 11 statistically selected Ports of Entry, improvements over the
      Trade Compliance Measurement (TCM) program were noted. However, the following conditions
      related to the TCM program were identified:
      •	 Two ports were unable to provide evidence of review of the Automated Commercial
          Environment (ACE) reports (ESM-7010, ESM-7011, or ESM-10001) on a monthly basis as
          required by CBP Directive 3550-074C, Uniform Input of Entry Summary Review Findings
          Using the ACE Validation Activity.
      •	 Inconsistent use of data queries and reports by the TCM Coordinators to monitor TCM. TCM
          Coordinators stated that the ACE reporting functionality is not operating effectively.
          Instances were noted when the ACE reports listed entries with a Validation Activity (VA) that
          had already been closed and/or the reports would not list TCM hits with open VAs.
          Therefore, the TCM Coordinators did not have a standard functioning method of monitoring
          TCM.



                                                  11

                                                                                        Section I
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


      •	 Lack of understanding concerning the use of the ACE Inbox, which hosts the TCM hits. Ports
         that generate more than 100 hits were not aware of the ACE Inbox functionality allowing
         users to view additional TCM hits needing attention.
      •	 Headquarters provides the ports with a monthly database, which provides an effective tool to
         analyze and monitor TCM hits. However, the Headquarters Database for the FY 2011 TCM
         hits was not made available to the Ports until February 2011.
      •	 CBP Directive 3550-074C does not provide sufficient information to the TCM Coordinators
         on how to appropriately review the ACE reports and Headquarters Database. Details
         regarding the review, annotations, and maintenance of the reports are not provided.

      Recommendations:
      We recommend that CBP:
      •	 Continue the distribution of the monthly TCM database and excel spreadsheets for proper
         oversight and monitoring of the TCM program.
      •	 Ensure ports are appropriately reviewing the ACE reports in accordance with CBP Directive
         3550-074C and issue new and/or updated guidance as needed.
      •	 Utilize quarterly conference calls to communicate with the ports current issues needing
         attention and resolutions already in place.

CBP – FMC 11-18 – Untimely De-obligation of UDOs and Monitoring of Period of Performance
(NFR No. CBP 11-28)

      During our testwork over CBP’s UDO balance as of August 31, 2011, and September 30, 2011,
      we selected statistical samples totaling 455 UDOs and noted weaknesses in CBP’s monitoring of
      these obligations. Specifically, we noted the following:
      •	 Eleven UDOs were no longer valid and had not been de-obligated, or marked for de-
         obligation, totaling $1.2 million. CBP did not reconcile these UDOs to supporting
         documentation (e.g., certifications) and reasonably assure that only valid obligations remained
         open.
      •	 For three purchase order agreements, the period of performance had expired prior to the
         execution of a modification, for up to a period of four months.
      •	 For two purchase order agreements, the period of performance expired (in September 2010
         and April 2011) and it was confirmed that more goods or services were expected to be
         received on these agreements. However, no modification has been executed on these
         agreements as of September 30, 2011, to extend the period of performance (POP).
      •	 For one interagency agreement and one purchase order, goods and/or services were accepted
         prior to the execution of the contract. Thus, the period of performance was back-dated in
         order to accept the invoices for the good/services.

      Recommendations:
      We recommend that CBP:
      •	 Follow-up with offices cited on the report as not being in compliance with CBP Directive
         1220-011D. Emphasize better communication between the COTR with the program office
         and the CO.
      •	 Improve monitoring of the POP, especially the end date, on active contract actions to avoid
         elapse of time and ensure SAP is updated with the current POP end date.



                                                  12

                                                                                        Section I
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


      •	 Improve monitoring of the POP, especially the end date, on active contract actions to avoid
         delays in awarding the renewal contract actions and ensure SAP is updated with the current
         POP end date.

CBP – FMC 11-19 – Weaknesses in CBP’s Payroll Reconciliation Process (NFR No. CBP 11-30)

      CBP did not perform a proper reconciliation between the U.S. Department of Agriculture (USDA)
      Abstract and the Governmentwide Accounting and Reporting Program (GWA) Account
      Statement. On the USDA Abstract to GWA Account Statement Comparison Worksheet, CBP
      populates amounts from the USDA Abstract in one column and amounts from the GWA Account
      Statement in a separate column for comparison. CBP properly utilized the USDA Abstract to
      populate amounts in the USDA Abstract column. However, when populating amounts in the
      GWA Account Statement column, CBP erroneously utilized the USDA Abstract instead of the
      GWA Statement. Therefore, CBP did not compare the USDA Abstract to the GWA Account
      Statement. CBP confirmed that the condition existed for the entire FY 2011.

      Recommendation:
      We recommend that CBP include the GWA reports in the monthly payroll reconciliation to ensure
      no reconciling items exist.

CBP – FMC 11-20 – Insufficient Review of Manual Journal Entries (NFR No. CBP 11-31)

      Insufficient review was performed over certain Adjusting Journal Entries (AJE) and related
      supporting documentation, and as a result errors were not identified during the AJE review:
      •	 The AJE to record the year-end Refunds Payable Accrual improperly credited Standard
         General Ledger (SGL) 2990, Other Liabilities without Related Budgetary Obligations, rather
         than crediting SGL 2190, Other Liabilities with Related Budgetary Obligations. Furthermore,
         a mathematical error existed in the calculation of the adjustment causing the accrual to be
         understated by approximately $1.9 million.
      •	 The AJE to record the fourth quarter imputed pension costs excluded the payroll information
         for pay periods 13 through 18, which resulted in the imputed cost being understated by
         approximately $35 million.

      Recommendations:
      We recommend that CBP:
      •	 Revise the SOPs to include a new validation of the prior-year Refunds Payable calculations
          which will impact current year calculations. This validation will be reviewed by the first and
          second level AJE reviewers. In addition, the work-papers for this AJE will be revised to
          include identity of the correct debit/credit general ledger accounts.
      •	 For the pension calculation, CBP has added work-paper support and a spreadsheet validation
          to avoid this error in the future.




                                                  13

                                                                                          Section I
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2011


CBP – FMC 11-21 – Deficiencies in the Review of the Department of Labor Chargeback
Report (NFR No. CBP 11-32)

      CBP’s Human Resource Management (HRM) – Workers’ Compensation Program Office
      (WCPO) does not perform a review of the Department of Labor Detailed Chargeback Report
      (chargeback) on a quarterly basis. Rather, a review of significant payments is performed every 24
      months.

      Recommendations:
      We recommend that CBP:
      •	 Finalize the amended CBP Directive No. 51810-005, Workers’ Compensation Program,
          which includes verbiage that provides the HRM Benefits, Medical and Worklife Division
          (BM&W) the leverage to develop CBP’s processes for monitoring of the chargeback to
          ensure accuracy.
      •	 Continue the efforts of the BM&W in developing a process to review and distribute the
          chargeback report on a quarterly basis. A senior advisor will lead the efforts as the initial
          contact lead to interface and achieve collaboration and buy-in for the quarterly review of
          CBP’s chargeback.
      •	 Develop SOPs and conduct training on how to read the chargeback and conduct the
          chargeback review.




                                                   14

                                                                                              Section II
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


II.    FEDERAL EMERGENCY MANAGEMENT AGENCY (FEMA)

FEMA – FMC 11-01 – Deficiencies in Development and Application of Policies Related to the Non-
Grant, Non-Mission Assignment, Non-System-Generated Accounts Payable Accrual (NFR No. 11­
02)

       Our review of the accounts payable accrual model methodology as of December 31, 2010,
       revealed that an accrual is not generated for the following fund codes and Budget Object Codes
       (BOC), and the Intergovernmental Accrual Process does not specifically address the accrual
       process for the following funds:
       •	 Fund codes 79, 87-89, 8C, 9B, 9C (all related to limited and no-year funds for the Chemical
           Stockpile Emergency Preparedness Program).
       •	 Fund code H7 (related to State and Local Programs Fund - Public Safety Interoperable
           Communications).
       •	 BOC 2503 (Delegation of Authority – Disaster Unemployment Assistance) and 2504
           (Delegation of Authority – Crisis Counseling Assistance).

       Recommendation:
       We recommend that FEMA incorporate an assessment of these BOCs and funds into the quarterly
       accounts payable accrual process and document the assessment.

FEMA – FMC 11-02 – Inability to Closeout Assistance to Firefighter Grants (NFR No. 11-04)

       During our testwork performed over Assistance to Firefighter Grants (AFG), we noted that
       system closeout issues continue to exist in FY 2011. Per discussion with Grant Programs
       Directorate personnel, the system problems with the implementation of the SF-425 continued
       throughout most of FY 2011. Although a manual process was implemented in June 2011, at that
       time, only grant awards from FY 2002 through FY 2004 were being closed out manually.
       Continued issues prevented closeouts related to grant awards from FY 2005 through FY 2009.
       (The award process for AFG takes place during the fourth quarter of the fiscal year; as such, FY
       2010 AFG do not require closeout in the current fiscal year.)

       Recommendations:
       We recommend that FEMA:
       •	 Implement planned modifications to the AFG system that are designed to enable the closeout
          of AFG awards from FY 2007 – FY 2010.
       •	 Utilize the established manual closeout process for AFG awards prior to FY 2007 and for
          subsequent awards until the system capability exists to complete closeouts.




                                                  15

                                                                                               Section II
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


FEMA – FMC 11-03 – Deficiencies in Development of Mission Assignment Policies and Procedures
(NFR No. FEMA 11-05)

       Under SOP Number 2600-007, Financial Reporting of Mission Assignments dated March 17,
       2011, FEMA requires mission assignment-related UDO balances to be validated annually as of
       June 30th of each year. In the event an Other Federal Agency (OFA) is non-responsive to the
       validation request, FEMA notifies the OFA that the closeout process will be initiated and funds
       will be de-obligated unless sufficient supporting documentation is received. FEMA, however,
       does not designate a timeline as to when de-obligation will take place to ensure the mission
       assignment (MA) UDO balance is validated or closed out prior to year-end. The policy calls for
       UDOs to be reviewed but not validated at other times throughout the year.

       Recommendation:
       We recommend that FEMA designate, as part of its annual validation process, a timeline as to
       when de-obligation will take place when the OFA is non-responsive to ensure the MA UDO
       balance is validated or closed out prior to year-end.

FEMA – FMC 11-04 – Lack of Certain Documentation Related to Compliance with the Improper
Payments Elimination and Recovery Act of 2010 (NFR No. FEMA 11-08)

       In FY 2011, we reviewed FEMA’s risk assessment approach and test plan for each of the
       programs that were determined to be of significant risk for improper payments. Based on our
       review, we determined that FEMA used a multi-year sampling approach for the Public Assistance
       Grant Program, the Homeland Security Grant Program, and the Transit Security Grant Program
       given the large size of the programs. Because this approach was used, FEMA was unable to
       extrapolate the sample results over the entire population and could not provide results within the
       required 2.5% precision level. For this approach to be considered compliant with the Improper
       Payments Elimination and Recovery Act of 2010 and Office of Management and Budget (OMB)
       Circular No. A-123, FEMA must obtain approval from OMB. FEMA did not obtain official
       written approval until September 23, 2011, after testing had begun.

       The plan approved on September 23, 2011 is a multi-year testing plan that is effective for the
       Homeland Security Grant Program and the Transit Security Grant Program through FY 2013 and
       for the Public Assistance Grant Program through FY 2014.

       Recommendation:
       No recommendation is necessary as FEMA management implemented corrective action during
       the fiscal year.




                                                  16

                                                                                            Section II
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2011


FEMA – FMC 11-05 – Inability to Link Systems to Significant Grant Programs (NFR No. FEMA
11-11)

       We requested that FEMA provide an analysis to demonstrate the amount of UDOs flowing
       through each grant system during FY 2011. We asked that the analysis include Catalog of
       Federal Domestic Assistance Number, Grant Program, Responsible Directorate, Award System,
       Monitoring System, Grant Identifier, Obligation System, Obligation Amount, Payment System,
       Payment Amount, and the UDO reconciled balance.

       We noted that a spreadsheet was created based on our request; however, FEMA was unable to
       identify the appropriate monitoring system for each grant program. Additionally, FEMA does not
       maintain a database that links grant systems to significant grant programs to facilitate the
       assessment of system-based controls over obligations and payments related to these programs.

       Recommendations:
       We recommend that FEMA:
       •	 Develop and implement a monitoring control to ensure that the currently developed
          spreadsheet is updated timely when changes occur.
       •	 Dedicate the resources to implement a process to monitor which grant programs are flowing
          through which grant systems in order to facilitate the assessment of system-based controls
          over obligations and payments related to these programs.

FEMA – FMC 11-06 – Deficiencies in the Preparation and Review of the Government
Accountability Office (GAO) Financial Audit Manual 2010 – Checklist for Federal Accounting
(NFR No. FEMA 11-12)

      Upon independent review of FEMA’s initial GAO Financial Audit Manual 2010 – Checklist for
      Federal Accounting (Checklist) as of March 31, 2011, we determined FEMA did not properly
      complete all questions in the Checklist, as follows:
      •	 Responses to 13 questions were not consistent with the accounting policies and operations
         currently implemented at FEMA.
      •	 Various explanations provided in the Checklist required more information per the Checklist
         instructions.
      •	 Four questions were answered when the index indicated “N/A,” and per the Checklist
         instructions, only items considered applicable in the index should be answered.

       Although the Checklist was reviewed for completeness, accuracy, and validity and approved by
       FEMA management in accordance with the FY 2011 DHS Office of Financial Management
       (OFM) Component Requirements Guide for Financial Reporting, inconsistencies in the Checklist
       noted were not identified by the review.

       Recommendation:
       We recommend that FEMA develop and implement SOPs over the annual preparation and review
       of the Checklist.




                                                 17

                                                                                                 Section II
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2011


FEMA – FMC 11-07 – Inaccuracy of Claims’ Loss Reserves at Selected Insurance Companies that
Participate in FEMA’s National Flood Insurance Program (NFIP) (NFR No. FEMA 11-14)

       We selected nine insurance companies and tested a sample of 65 loss reserves reported by these
       companies as of March 31, 2011. During this testing, we noted the following errors:
       •	 For five sample items, the loss reserve recorded in the insurance company NFIP claims
          system was not updated appropriately to reflect additional adjustor reports and/or claim
          payments, causing the reserves to be misstated as of March 31, 2011.
       •	 For three sample items, the claim was not closed in a timely manner which overstated the
          reserve balance as of March 31, 2011.
       •	 For one sample item, the claim was closed without payment and then reopened in order to
          pay adjustor fees. However, the claim was not re-closed after the fees were paid, which in
          turn overstated reserves.

       Additionally, we selected nine insurance companies and tested a sample of 65 loss reserves
       reported by these companies as of August 31, 2011. During this testing, we noted the following
       errors:
       •	 For one sample item, the reserve was not updated to accurately reflect receipt of the
           preliminary report and the payment of an advance, which caused the reserve to be understated
           as of August 31, 2011.
       •	 For one sample item, the loss reserve recorded in the insurance company NFIP claims system
           was not updated appropriately to reflect the final report, causing the reserves to be overstated
           as of August 31, 2011.

       Recommendations:
       We recommend that FEMA:
       •	 Follow-up with each of the insurance companies with exception to determine that appropriate
          corrective action has been implemented to address the exceptions noted.
       •	 Provide increased oversight to ensure the specific and consistent documentation of the
          established loss reserve and subsequent adjustment to the loss reserve per claim at the
          insurance companies participating in the NFIP is maintained and that current loss reserve
          information is communicated to the third-party service provider timely.

FEMA – FMC 11-08 – Internal Control Deficiencies over Claims Paid at Selected Insurance
Companies that Participate in FEMA’s NFIP (NFR No. FEMA 11-15)

       We selected nine insurance companies and tested a sample of 270 claim payments across those
       companies covering the period October 1, 2010 to March 31, 2011. During this testing, we noted
       the following errors:
       •	 For two sample items, the claim payment was not recorded in the correct fiscal year.
       •	 For eight sample items, the loss reserve related to the claim transaction was not updated
           properly to reflect claim payments or additional adjustor reports, causing reserves to be
           misstated.
       •	 For one sample item, the deductible was not properly applied to a contents claim.
       •	 For two sample items, the claim was not properly closed after the policy was closed and
           rewritten.


                                                   18

                                                                                              Section II
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


       •	 For one sample item, the claim payment made to the insured did not match the total claim
          payment on the final report, causing the insured to be overpaid.

       Additionally, we tested a sample of 135 claim payments across the nine insurance companies
       covering the period April 1, 2011 to June 30, 2011. During this testing, we noted the following
       errors:
       •	 For three sample items, the claim payment made to the insured did not match the total claim
           payment on the final report, causing the insured party to be overpaid or underpaid.

       Recommendations:
       We recommend that FEMA:
       •	 Follow-up with each of the insurance companies with exceptions to determine whether
          appropriate corrective actions have been implemented to address the exceptions noted.
       •	 Provide increased oversight to insurance companies participating in the NFIP to ensure
          claims files are being processed and reviewed in accordance with NFIP guidelines before
          approval and issuance of claim payments and to ensure the specific and consistent
          establishment and reporting of loss reserves and subsequent adjustments to the loss reserves.

FEMA – FMC 11-09 – Deficiencies in the Monthly Spend Plan Reconciliation Preparation Process
(NFR No. FEMA 11-17)

       Based on our FY 2011 walkthrough procedures performed over the Monthly Spend Plan
       Reconciliation preparation process, we noted the following deficiencies in the design:
       •	 A lack of oversight exists over the contractors who extract the actual spending data from the
          general ledger. It is uncertain whether they are pulling the correct information as the
          reviewer does not perform necessary oversight of the procedures taken by the contractors to
          extract the data from the general ledger.
       •	 The Budget Manual, which was issued during FY 2011, describes that when the review of the
          reconciliation is performed, the Office of the Chief Financial Officer (OCFO) and the FEMA
          program offices address the issue of how the funds are allocated. We noted that the Budget
          Manual does not indicate the procedures that need to be taken to reconcile the actual
          committed, obligated, and expended amounts to the appropriate amounts per the general
          ledger.
       •	 No clear documentation evidences the Monthly Spend Plan Reconciliations or the review
          thereof. Management was not able to provide support for reconciliations performed, or any
          evidence of their final review other than the posting of them on the FEMA intranet.

       Recommendations:
       We recommend that FEMA revise standard operating procedures, including appropriate internal
       controls, over the preparation and review of the Monthly Spend Plan Reconciliation to ensure
       that:
       •	 Actions performed by contractors are properly monitored.
       •	 A consistent process is established to reconcile information in the Monthly Spend Plan
           Reconciliation to the general ledger.
       •	 Proper review of the Monthly Spend Plan Reconciliation is performed prior to its posting on
           the FEMA intranet.



                                                  19

                                                                                               Section II
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


FEMA – FMC 11-10 – Deficiencies Identified in the General Ledger Chart of Accounts and
Transaction Codes (NFR No. FEMA 11-18)

       Based on our review of FEMA’s FY 2011 general ledger chart of accounts as of June 30, 2011,
       we noted six accounts that were included in the general ledger chart of accounts and were active,
       but they were not included in the 2011 United States Government Standard General Ledger
       (USSGL) chart of accounts.

      Based on our testwork performed over a sample of 32 transaction code (T-code) numbers and 248
      total T-code transactions as of June 30, 2011, we noted that 9 of the 248 total T-code transactions
      selected for testwork were not in compliance with the USSGL.

       Recommendations:
       We recommend that FEMA:
       •	 Perform additional research to determine how to de-activate the identified accounts through
          the general ledger. If prior year accounts are necessary to post beginning balances, develop
          and implement procedures to ensure accounts are deactivated timely once beginning balances
          are recorded.
       •	 Develop a comprehensive T-code crosswalk to determine whether general ledger T-codes are
          in compliance with the USSGL and why some T-codes deviate from the USSGL.

FEMA – FMC 11-11 – Improvements Needed in Review and Recording of Year-end Mission
Assignment Accrual (NFR No. FEMA 11-19)

       FEMA attempted to perform a validation of the estimated June 30, 2011 MA accounts payable
       accrual to determine the accuracy and reliability of the estimate. However, during our review of
       the validation, we noted that the validation was not effective as FEMA compared all
       reimbursement requests received in the fourth quarter of FY 2011 to the accrual balance as of
       June 30, 2011. For comparison purposes, the reimbursement requests received in the fourth
       quarter of FY 2011 used to validate the accrual should only include the requests received for
       services and/or expenses incurred prior to July 1, 2011.

       In addition, FEMA does not review and analyze the accrual by OFA prior to recording the
       accrual to ensure that validity and reasonableness of each accrual.

       Recommendations:
       We recommend that FEMA:
       •	 Develop and implement procedures to compare the MA accounts payable accrual estimates to
          the actual expenses incurred, communicate with OFAs on discrepancies noted to make
          estimation improvements in the future, and reassess the process to develop the estimate as
          necessary. The verification and validation should be documented and properly reviewed.
       •	 Thoroughly review MA accounts payable accrual supporting documentation for
          reasonableness prior to recording amounts reported by OFAs, and exercise timely
          communication with OFAs on any discrepancies noted to prevent an intragovernmental
          reconciliation problem.




                                                  20

                                                                                           Section II
                                Department of Homeland Security
                                Financial Management Comments
                                      September 30, 2011


FEMA – FMC 11-12 – Improvements Needed in Management’s Review of Grant Data and
Automated Reconciliations in Grant Accrual Models (NFR No. FEMA 11-22)

      Our review of Legacy FEMA’s implemented grant accrual process (generally for disaster and
      non-preparedness grants) revealed the following deficiencies within the process as of June 30,
      2011:
      •	 The legacy FEMA grant accrual model tab did not properly include PIN D3512 in the
         calculation of the accrual. As a result, the legacy FEMA grant accrual advance was
         understated by $1,159,221. As the exclusion was not identified in the review of the inputs
         and outputs of the model, the controls were not operating effectively.
      •	 A discrepancy between the Ending Cash on Hand (ECOH) reported in the accrual model data
         and the ECOH per the SF-272 SmartLink report was identified. A one-cell shift in the ECOH
         column in the accrual model data caused this discrepancy. Although we determined the
         ECOH column does not feed into any model inputs or outputs, and there was no substantial
         effect related to the shift of the column, a control-based exception was recognized for
         insufficient review and approval of the inputs and outputs of the model.
      •	 Variances between estimated and actual advances and liabilities that exceed the acceptable
         variance range (AVR) thresholds established by FEMA policies were not adequately
         addressed. The advance variances at December 31, 2010 and March 31, 2011 were $35
         million and $30.7 million respectively. Additionally, liability variances at September 30,
         2010, December 31, 2010, and March 31, 2011, were $143.4 million, $91.5 million, and
         $64.6 million respectively. These discrepancies fell outside the target error rate for the
         advance and liability estimates for the legacy FEMA grant accrual. Furthermore, FEMA
         noted that management review of the AVR is only completed annually, and it is a process that
         continues to be under review.

      Our review of Legacy FEMA’s implemented grant accrual process revealed the following
      deficiencies within the process as of September 30, 2011:
      •	 A discrepancy between the ECOH reported in the accrual model data and the ECOH per the
          SF-272 SmartLink report was identified, similar to the issue noted as of June 30, 2011.
      •	 Variances between estimated and actual advances and liabilities that exceed the AVR
          thresholds were not adequately addressed. The advance variance at June 30, 2011 was $46.7
          million, which exceeded the AVR.

      Our review of FEMA’s Grants and Training (G&T) grant accrual process revealed the following
      deficiency within the process as of June 30, 2011:
      •	 The Journal Voucher (JV) to record the liability allocation for fund code T8 was initially
          recorded for the wrong amount of $72.6 million. The entry was subsequently reversed and
          FEMA then posted the correct balance in a new JV. As the review and approval of the
          original JV was not properly performed, the control was not operating effectively.

      Our review of FEMA’s G&T grant accrual process revealed the following deficiencies within the
      process as of September 30, 2011:
      •	 The September 30, 2011 returned a $3.5 million advance and $50.9 million liability for fund
          T6. As fund T6 (State and Local Programs) was cancelled at September 30, 2011, FEMA
          reallocated the advance and liability from fund T6 to funds T0, T7, T8, T9, and E0. We


                                                21

                                                                                                Section II
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


          determined that the reallocation of advances ($294,604) and liabilities ($4.3 million) related
          to fund T6 (State and Local Programs) to fund E0 (Emergency Management Performance
          Grants) was not proper as the funds are not used for the same purpose. As the reallocation
          was not properly reviewed, the control was not operating effectively.

      At June 30, 2011 and September 30, 2011, FEMA recorded all grant related payables in USSGL
      account 2110. Per the USSGL T-code B402 which states "Record USSGL account 2190 for
      grants payable", FEMA is not in compliance with USSGL.

      Recommendations:
      We recommend that FEMA:
      •	 Conduct training to ensure that the individuals responsible for preparing and reviewing the
         grant accrual clearly understand their roles and responsibilities for the preparation and review
         of the grant accruals.
      •	 Review and conduct follow-up related to unusual advance and liabilities balances reported by
         grantees.
      •	 Review and resolve large variances between estimated and actual advances and liabilities.
      •	 Conduct training to ensure grantees understand the SF-425 form and complete it properly.
      •	 Record grant related payables in SGL account 2190.

FEMA – FMC 11-13 – Issues Identified in Journal Voucher (JV) Testwork (NFR No. FEMA 11-23)

      Journal Voucher Population Completeness as of March 31, 2011:
      To determine the completeness of the JV population as of March 31, 2011, we obtained a roll-
      forward of all financial activity from October 1, 2010 (period 00) to March 31, 2011 (period 06)
      from FEMA.

      Based on this testwork, we noted two of thirteen of March 31, 2011 Treasury Information
      Executive Repository (TIER) adjustments were not fully researched prior to submitting them into
      the DHS TIER repository.

      Journal Voucher Population Completeness as of June 30, 2011:
      To determine the completeness of the JV population as of June 30, 2011 we obtained a roll-
      forward of all financial activity from March 31, 2011 (period 06) to June 30, 2011 (period 09)
      from FEMA.

      Based on this testwork, we noted two of fifteen June 30, 2011 TIER adjustments were not fully
      researched prior to submitting them into the DHS TIER repository.

      Journal Voucher Population Completeness as of September 30, 2011:
      To determine the completeness of the JV population as of September 30, 2011, we obtained a
      roll-forward of all financial activity from June 30, 2011 (period 09) to September 30, 2011
      (period 12) from FEMA.

      Based on this testwork, we noted three of seven September 30, 2011 TIER adjustments were not
      fully researched prior to submitting them into the DHS TIER repository.



                                                  22

                                                                                        Section II
                           Department of Homeland Security
                           Financial Management Comments
                                 September 30, 2011



Journal Voucher Testing as of March 31, 2011:
Based on our JV dual purpose testwork as of March 31, 2011, we noted that 1 of 52 JV sample
items did not reflect the underlying events and transactions.

Based on our control testwork as of March 31, 2011, we noted that 13 of 52 JV were corrections
of previous JVs that should not have been necessary if the original entry was properly reviewed
and approved to determine if the attribute, fiscal year, and general ledger accounts were proper
and agreed from the hard copy Microsoft Excel template to the general ledger entry.

Journal Voucher Testing as of June 30, 2011:
Based on our JV dual purpose testwork as of June 30, 2011, we noted that for 2 of 38 JV sample
items the original entry was posted in December 2010 to the incorrect budget fiscal year. We
determined the correcting entry was not posted until June 2011, which we do not consider to be
timely corrections.

Based on our control testwork as of June 30, 2011, we noted that 3 of 38 JV were corrections of
previous JVs that should not have been necessary if the original entry was properly reviewed and
approved to determine if the attribute, fiscal year, and general ledger accounts were proper and
agreed from the hard copy Microsoft Excel template to the general ledger entry.

Journal Voucher Testing as of September 30, 2011:
Based on our JV dual purpose testwork as of September 30, 2011, we noted that 1 of 54 JV
sample items did not reflect the underlying events and transactions.

Based on our control testwork as of September 30, 2011, we note 3 of 54 JV were corrections of
previous JVs that should not have been necessary if the original entry was properly reviewed and
approved to determine if the attribute, fiscal year, and general ledger accounts were proper and
agreed from the hard copy Microsoft Excel template to the general ledger entry.

Federal/Intra-agency/Non-Federal (F/I/N) Attributes:
To address the F/I/N attributes within the general ledger for purposes of the TIER submissions
throughout FY 2011, FEMA adjusted intra-agency (‘I’) amounts and recorded them in selected
G&T funds in TIER. For example, we observed that FEMA calculated the adjustment amounts
based on the difference between USSGL elimination pairs (e.g., USSGL accounts 1410 –
Advances and Prepayments and 2310 – Liability for Advances and Prepayments),
increased/decreased the intra-agency amount for one side of the elimination pair, and applied the
adjustment to a selected G&T fund. No documentation existed to support the reasonableness of
these adjustments.

Temporary Housing Unit (THU) Transactions:
FEMA recorded several entries throughout the year based on improper guidance provided by
DHS OFM. FEMA reversed correct entries and posted improper entries based on DHS OFM
guidance, which lead to an abnormally large number of JVs relating to THUs. FEMA corrected
these entries by year-end.




                                           23

                                                                                                 Section II
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2011


       Recommendations:
       We recommend that FEMA:
       •	 Dedicate sufficient resources to ensure JVs are thoroughly researched, reviewed, and
          approved prior to entering them in the general ledger or adjusting the TIER files.
       •	 Dedicate sufficient resources to ensure that all F/I/N attributes are reviewed and corrected in
          a timely manner.
       •	 Work with DHS OFM to develop a formal policy/procedure to resolve disagreements with
          DHS OFM relating to proper accounting treatments.

FEMA – FMC 11-14 – Lack of Supporting Documentation for Prompt Payment Sample Item (NFR
No. FEMA 11-24)

       Based on our testwork performed over a sample of 85 payments made during FY 2011, we noted
       one Prompt Payment Act exception. For this transaction, the goods were received on the same
       day as the invoice. However, FEMA did not make the vendor payment within the required time
       period (within 30 days of the receipt of the invoice) or pay the required interest penalty for this
       late payment.

       Recommendations:
       We recommend that FEMA:
       •	 Develop a monitoring control to ensure adherence to existing prompt payment policies and
          procedures for all applicable payment activities.
       •	 Provide additional training to ensure invoices are entered into the general ledger timely and
          the payment due date is entered correctly.

FEMA – FMC 11-15 – Deficiencies in Verification and Collection of Performance Measurement
Data for the Annual Financial Report’s (AFR) Management’s Discussion and Analysis (NFR No.
FEMA 11-26)

       In the FY 2011 DHS AFR, information for four performance measurements was provided from
       FEMA’s program offices. We noted the following conditions for two of these performance
       measurements:
       •	 “Percent of time that critical communications for response operations are established within
            12 hours” - A complete population of the supporting documentation could not be provided.
            From the few items that were provided, we noted that the supporting documentation could not
            be used to objectively verify the performance measurement percentage in the AFR.
       •	 “Percent of orders for required life-sustaining commodities (meals, water, tarps, plastic
            sheeting, cots, blankets, and generators) and key operational resources delivered by the
            agreed upon date” - The incorrect performance measurement percentage (96%) was
            submitted to the Office of Policy and Program Analysis, which was the number submitted for
            the AFR. This incorrect percentage did not match the underlying data provided by the
            program, which supported a percentage of 93%.




                                                   24

                                                                                              Section II
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


       Recommendations:
       We recommend that FEMA:
       •	 Develop and implement a process to ensure that performance measures can be objectively
          tracked, calculated, and verified.
       •	 Develop and implement a review process to validate the data and the performance
          measurement calculations prior to submission to DHS.

FEMA – FMC 11-16 – Deficiencies in the Legacy FEMA Grant Accrual Methodology (NFR No.
FEMA 11-27)

      During the preparation of the June 30, 2011 legacy FEMA grant accrual, FEMA determined it
      appropriate to exclude BOC 4310, Educational Stipends, from the grant accrual model data
      extraction. However, FEMA did not properly update its SOP to note the exclusion of BOC 4130
      as of June 30, 2011. A new SOP was put in place in September 2011.

       Recommendation:
       No recommendation is necessary as FEMA remediated the condition by September 30, 2011.

FEMA – FMC 11-17 – Deficiencies over the NFIP Treasury Information Executive Repository JV
Adjustments (NFR No. FEMA 11-28)

       In conjunction with our testwork of FEMA’s JVs to record NFIP activity as of September 30,
       2011, and review of the FY 2011 DHS AFR, we noted the following:
       •	 FEMA did not include USSGL account 1190, in the amount of $33.1 million, in the
           calculation for the budgetary entry to reconcile budgetary cash to proprietary cash. The
           exclusion of this account in the calculation is inappropriate, as account 1190 should be
           included to ensure budgetary cash balances with proprietary cash.
       •	 FEMA calculated its budget entries related to contractor-submitted expenses based on
           proprietary entries which are estimated by the third party service provider. FEMA used the
           entries to post the correct budgetary entries to the general ledger. Budgetary entries are
           automatically calculated and recorded for all other expenses not submitted by a contractor.
           FEMA was unable to explain a $682.7 million difference between proprietary expenses and
           budgetary expenses.

       Recommendations:
       We recommend that FEMA:
       •	 Review, update and reissue SOPs for the recording of NFIP financial statement information
          into the FEMA general ledger to include USSGL account 1190 in the calculation for the
          budgetary entry to reconcile budgetary cash to proprietary cash.
       •	 Develop, document, and implement a method to identify differences between proprietary and
          budgetary accounts in 70X4236 and assess if the differences identified are reasonable.




                                                  25

                                                                                            Section II
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2011


FEMA – FMC 11-18 – Lack of Communication Regarding the Existence of the DHS Office of
Inspector General (OIG) Fraud Hotline (NFR No. FEMA 11-29)

      In order to test the operating effectiveness of the DHS OIG Hotline at FEMA, we inquired of two
      personnel within the Financial Statements and Reporting Branch and one person in the Risk
      Management Branch under the OCFO. None of them were aware of the existence of the hotline
      or its purpose.

       Recommendation:
      We recommend that FEMA management improve communications to their employees regarding
      the existence of the DHS OIG Hotline, its importance, and the situations in which the hotline
      should be used.




                                                 26

                                                                                              Section III
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


III.   FEDERAL LAW ENFORCEMENT TRAINING CENTER (FLETC)

FLETC – FMC 11-01 – Capitalization of Property, Plant, and Equipment (PP&E) (NFR No.
FLETC 11-01)

       During testwork over PP&E as of June 30, 2011 and September 30, 2011, KPMG noted the
       following issues:
       •	 One instance where costs related to a construction in progress (CIP) project had not been
           capitalized from the inception of the project which resulted in the project being capitalized
           untimely in FY 2011. This resulted in CIP and cumulative results of operations being
           understated in FY 2010.
       •	 One instance where a flag pavilion addition was not recorded as a capitalized asset until six
           months after the completion of the project. Once capitalized, FLETC applied the correct in-
           service date so depreciation was correctly applied.
       •	 One instance where software under development was put into use in September 2010 though
           the software was not reclassified from software under development to internal use software
           (IUS) until September 2011, one year later. This resulted in SGL 1830, Internal Use
           Software, being understated in FY 2010, SGL 1832, Software In Development, being
           overstated in FY 2010, and SGL 1839, Accumulated Depreciation- Software, being
           understated in FY 2010. Additionally, when the software was reclassified, the in-service date
           was recorded as February 1, 2011, and it should have been September 2010. This resulted in
           depreciation expense and accumulated depreciation being understated in FY 2011.
       •	 When the A/P Accrual was calculated, the portion related to PP&E was not reclassified from
           SGL 6100, Expenses, to SGL 1720, Construction in Progress. This resulted in an
           overstatement of Expenses and an understatement of CIP as of September 30, 2011.

       Recommendations:
       We recommend that the FLETC Finance Division (FIN):
       •	 Implement more aggressive follow-up for submission of capitalization reports from
          program/project managers upon project completion, contract closeout or building occupancy,
          whichever comes first. If a capitalization report is not received within ten days, FIN prepares
          an interim preliminary capitalization report to effect the reclassification of CIP into the
          general asset account.
       •	 Emphasize to COTRs, end-users and program staff the importance of timely input of
          receiving reports and submission of invoices for payment in financial reporting accuracy and
          operating efficiencies related to bulk purchases.
       •	 Continue to perform manual reviews monthly as an additional check on bulk purchase field
          operational procedures and identify necessary updates to FLETC standard operating
          procedures related to bulk purchase policies and capitalization threshold.
       •	 Collaborate with the Software In Development team, the Student Administration and
          Scheduling System (SASS) Program Managers, to establish a communication process
          whereby FIN will be alerted as software modules/releases are put into production.
       •	 Strengthen monitoring and review of accrued expenses related to construction projects for
          reclassification into CIP at fiscal year-end by adding the tasks as a key item in the FIN Year­
          end Closeout Checklist.




                                                  27

                                                                                                Section IV
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2011


IV.    UNITED STATES CITIZENSHIP AND IMMIGRATION SERVICES (USCIS)

USCIS – FMC 11-01 – Deficiencies in the Timely Recording of Capital PP&E (NFR No. USCIS 11­
02)

       During our testwork for the period October 1, 2010 through June 30, 2011, we reviewed the
       property roll-forward files and identified prior period adjustments. In addition, we selected a
       statistical sample of PP&E transactions related to asset additions and noted the following:
       •	 Eight assets were recorded in the first and second quarters of FY 2011 that were purchased
            and received in the prior fiscal year. These assets all related to Equipment (USSGL 1750)
            and were from the Office of Information and Technology (OIT) and Office of Intake and
            Document Production.
       •	 Four assets were recorded in the third quarter of FY 2011 that were purchased and received in
            the prior fiscal year. These assets all related to Equipment (USSGL 1750) and were from the
            OIT.

       Recommendations:
       We recommend that USCIS OCFO, OA, OIT, and the Office of Contracting coordinate to
       develop policies and procedures that ensure PP&E acquisitions are processed in a standardized
       method and include the following:
       •	 Roles and responsibilities for ordering, purchasing, delivery, receiving, and establishing
          accountability.
       •	 Require that accurate documentation is provided to the appropriate personnel to ensure timely
          and accurate data entry into the Sunflower Asset Management System (SAMS) and Federal
          Financial Management System (FFMS).

USCIS – FMC 11-02 – Lack of Policies and Procedures over Non-Itemized Invoices for PP&E
(NFR No. USCIS 11-03)

       During our testwork for the period October 1, 2010 through March 31, 2011, we reviewed the
       property roll-forward files. Per review of the March property roll-forward, we noted that USCIS
       recorded an entry into FFMS to account for a $25.7 million invoice for OIT assets to be used at
       various data centers. The invoice provided to USCIS was not itemized to accurately identify the
       assets purchased and the cost for each item. As a result, we noted that USCIS recorded the total
       invoice amount in the general ledger prior to the individual assets being identified and recorded in
       SAMS.

       Recommendation:
       We recommend that the USCIS OCFO, OA, OIT, and USCIS Contracting coordinate to develop
       policies and procedures that ensure PP&E acquisitions are processed in a standardized method.
       These processes and procedures should ensure standardized delivery instructions, delivery
       verification and accurate documentation that ensure accurate data entry into SAMS and FFMS.




                                                   28

                                                                                               Section IV
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


USCIS – FMC 11-03 – Inadequate and/or Inconsistent Supervisory Review of Personnel Actions
(NFR No. USCIS 11-04)

       We noted during interim controls testwork that USCIS did not properly approve several personnel
       actions.

       We examined 35 USCIS SF-52s from the period October 1, 2010 to June 30, 2011, and noted
       that:
       •	 13 of the 35 samples were new hire, extension of appointment or promotion actions that
           require approval by a Funding Official. We noted five instances in which a Funding Official
           did not approve the SF-52.
       •	 23 of the 35 samples were requested and approved by the same individual in the field.

       Recommendation:

       We recommend that USCIS finalize and implement the Electronic System for Personnel 

       Administrative Guide.


USCIS – FMC 11-04 – Inadequate Supervisory Review of the Intra-Departmental Eliminations
Reconciliation (NFR No. USCIS 11-05)

       We reperformed the March 2011 Intra-Departmental Reconciliation and identified a trading
       partner difference over the Department’s materiality threshold of $3,357,824 for pairing #20
       (non-match liability) with Immigration and Customs Enforcement (ICE) on the Adjusted DHS
       Bureau Intra-Departmental Transactions by Elimination Pairs Report. The total component
       difference of $4,091,591 was not corrected prior to the final TIER II submission, and was not
       included on the CFO Certification for March 2011.

      Recommendation:
      We recommend that USCIS enhance the reviews of the Intra-Departmental Elimination
      Reconciliation to ensure all differences are identified and either resolved or disclosed on the CFO
      Certification Memo.

USCIS – FMC 11-05 – Inadequate Documentation and Untimely Capitalization of Internal Use
Software (IUS) (NFR No. USCIS 11-08)

       We performed testwork over PP&E additions as of June 30, 2011 and September 30, 2011, and
       noted USCIS did not capitalize Software in Development costs in a timely manner. We examined
       supporting documentation for the third and fourth quarter addition to Electronic Immigration
       System (ELIS)-Release A CLIN 002AC and noted the following:
       •	 USCIS recorded a third quarter addition to ELIS-Release A of $8.0 million. USCIS included
           in this amount $1.3 million of prior year and $2.0 million of costs from previous quarters
           within the fiscal year. USCIS did not identify the costs in previous quarterly reviews. The
           remaining $4.7 million was correctly capitalized in the third quarter.
       •	 USCIS recorded a fourth quarter addition to ELIS-Release A of $17.7 million. USCIS
           included in this amount $2.5 million of prior year and $4.2 million of costs from previous




                                                  29

                                                                                        Section IV
                           Department of Homeland Security
                           Financial Management Comments
                                 September 30, 2011


    quarters within the fiscal year. USCIS did not identify the costs in previous quarterly
    reviews. The remaining $11.0 million was correctly capitalized in the fourth quarter.
Recommendation:
We recommend that USCIS improve the process for identifying and reporting software in
development costs and standardize the procedures for identifying costs to reduce the risk that
costs will not be identified timely during the quarterly cost allocations and reporting.




                                            30

                                                                                                Section V
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2011


V.     IMMIGRATION AND CUSTOMS ENFORCEMENT (ICE)

ICE – FMC 11-01 – Failure to Record Payroll Accrual (NFR No. ICE 11-02)

       We noted that ICE did not adhere to its policy to accrue for payroll expenses that it had incurred
       at the end of the first and second quarters in FY 2011.

       Recommendation:
       We recommend that ICE adhere to its policy and record an accrual for payroll expenses at the end
       of each quarter.

ICE – FMC 11-02 – General Journal Entry Not Approved by Office of Financial Management
Director (NFR No. ICE 11-03)

       Per ICE policy, the ICE OFM Director is required to review and approve general journal (GJ)
       entries with debits and credits in excess of $300 million and sign the GJ cover sheet as evidence
       of his review. However, during testwork over GJs, we noted that ICE OFM processed one GJ
       transaction with debits and credits in excess of $300 million that was not approved by the
       Director of OFM.

       Recommendation:
       We recommend that ICE provide additional training to employees to ensure complete
       understanding of the requirements of the GJ Procedures SOP.

ICE – FMC 11-03 – Inadequate Internal Controls over Tracking and Removing Accumulated
Depreciation in Sunflower Asset Management System (NFR No. ICE 11-04)

       We selected a sample of five personal property items with abnormal balances as of June 30, 2011
       and noted that the assets had negative net book values due to either (1) depreciation in SAMS in
       excess of the asset’s value or (2) failure to write-off accumulated depreciation in SAMS upon
       disposal of the asset.

       Recommendation:
       We recommend that the ICE OFM and Office of Asset Administration (OAA) create and utilize
       existing detective tools to identify data anomalies within SAMS to specifically address
       depreciation anomalies.

ICE – FMC 11-04 – Process for Identifying Contract-type Obligations for Contract Closeout is
Delayed (NFR No. ICE 11-05)

       We selected a sample of eight UDOs from a population of UDOs that had no disbursement
       activity from June 30, 2010 to June 30, 2011 and noted that three of the eight aged UDOs were
       valid, but not active as of June 30, 2011. These UDOs needed to be reviewed by Program Offices
       before the contract closeout process for de-obligation may begin; however, Office of Acquisitions
       (OAQ) indicated that the Program Offices would not complete this review until FY 2012.




                                                   31

                                                                                                  Section V
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2011


       Recommendations:
      We recommend that ICE OFM with support from OAQ, Office of Facilities Administration
      (OFA), and ICE program offices:
       •	 Continue to emphasize timely review of open obligations, consistent with its current business
          processes, on a priority basis based on amounts/materiality and available resources.
       •	 Continue to emphasize timely monitoring and enforce existing policies and procedures for
          review and closeout of UDO balances with expired periods of performance.

ICE – FMC 11-05 – Inadequate Internal Controls over Tracking Leasehold Improvement Projects
(NFR No. ICE 11-06)

       In the beginning of FY 2010, ICE OFM conducted a review of software and leasehold
       improvements (LHIs) and detected errors in the balances and subsequently recorded adjustments
       to the LHIs in process and software in development balances as a result of these errors. In FY
       2011, as management continued to improve its process and controls, ICE recorded additional
       adjustments to the LHI in process balances for costs that were incurred in prior fiscal years.

       Recommendations:
       We recommend that ICE OFM and OFA:
       •	 Utilize existing controls as well as establish additional controls to ensure capital projects are
          identified at the time of obligation.
       •	 Perform recurring data reviews and tests to ensure established controls are operating
          effectively.

ICE – FMC 11-06 – Untimely Recording of Capitalized Asset Disposals (NFR No. ICE 11-07)

       During testwork over capitalized asset disposals as of June 30, 2011, we noted that one of the five
       capitalized vehicle disposals selected for testwork was disposed of in FY 2010, but was not
       recorded as a disposal in SAMS or FFMS until FY 2011.

       Recommendations:
       We recommend that ICE OAA, OFM, and DHS Project Management Office (PMO) for SAMS:
       •	 Meet to implement policies and procedures to ensure that disposals are removed from the
          general ledger in a timely manner.
       •	 Evaluate the discrepancy and formulate an action plan to eliminate the inconsistency between
          actual disposal and when the disposal is recorded.

ICE – FMC 11-07 – Reimbursable Agreements Not Timely Approved by Budget Officer (NFR No.
ICE 11-08)

       During testwork over reimbursable agreements as of June 30, 2011, we noted that three
       reimbursable agreements had not been timely approved by a Budget Officer.




                                                    32

                                                                                            Section V
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2011


       Recommendations:
       We recommend that ICE:
       •	 Follow the procedures outlined in the ICE Budget Execution Handbook, which includes
          guidance stating that Office of Budget and Program Performance (OBPP) will sign all
          reimbursable agreements that are accompanied by a complete package within five business
          days of receipt.
       •	 Plan to submit reimbursable agreement packages to OBPP 30 calendar days prior to the start
          of the agreement’s period of performance to ensure timely completion and signature prior to
          expenses being incurred.

ICE – FMC 11-08 – Contracting Officer has Access to Approve Invoices in Federal Financial
Management System (FFMS) (NFR No. ICE 11-10)

       We reviewed a listing of COs and their access rights within FFMS in order to determine whether
       appropriate segregation of duties was enforced between those COs who were able to enter into
       agreements and those COs who process payments and noted that 1 out of 71 COs had
       inappropriate access rights within FFMS. The contracting officer had authority to approve
       agreements and to input receiving tickets in the PM030 screen within FFMS. The contract
       approval and payment processes should be separate.

       Recommendations:
       We noted that ICE OAQ implemented “read or view-only” FFMS access for employees with CO
       responsibilities.

       We recommend that ICE:
       •	 OAQ Mission Support Team (MST) continue to monitor and approve FFMS access.
       •	 Ensure all warranted COs request access to FFMS through the OAQ MST.
       •	 Continue to follow the semi-annual validation process in which the listing of warranted COs
          is sent to the FFMS Help Desk for access validation.

ICE – FMC 11-09 – Incorrect Federal Employees Group Life Insurance Deduction (NFR No. ICE
11-11)

       During testwork over compliance with laws and regulations, we noted that ICE did not accurately
       deduct an employee’s Federal Employees’ Group Life Insurance (FEGLI) deduction for one
       sample item out of thirty-two. We noted that the employee elected FEGLI coverage of “Basic –
       5X additional.” At the time of the election, the employee worked at FEMA and the election was
       coded as “Basic – 1X.” When the employee transferred to ICE, ICE Human Resources personnel
       did not correct the deduction amount despite having the information on which to make the
       change.

       Recommendation:
       We recommend that ICE Office of Human Capital implement procedures to review and confirm
       benefits information for employees who transfer into the agency.




                                                 33

                                                                                              Section V
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


ICE – FMC 11-10 – Untimely Review of Office of Government Ethics 278 Forms (NFR No. ICE 11­
12)

       We selected a sample of 15 SF-278 financial disclosure forms filed by ICE employees and noted
       that seven items had not been certified within 60 days of receipt as required by CFR 5 §
       2634.605. We noted that all SF-278s were ultimately certified, but outside the 60 day window.

       Recommendation:
       We recommend that ICE continue to work with filers, supervisors, the DHS Ethics Office, and
       the DHS Financial Disclosure Management (FDM) system contractor to achieve improved
       implementation of the FDM system. Due to technical issues, we noted that one supervisor of
       twenty filers was not added to FDM until mid-August, delaying supervisory review and
       certification.

ICE – FMC 11-11 – Insufficient Documentation for Federal Employees’ Compensation Act Claims
(NFR No. ICE 11-13)

       We noted that ICE Office of Human Capital (OHC) does not have formal policies and procedures
       in place to document the Federal Employees’ Compensation Act (FECA) claims process. In FY
       2011, ICE OHC personnel operated under a draft directive.

       When performing testwork over 45 FECA claims, we noted the following:
       •	 For three claims, the Federal Employee’s Notice of Traumatic Injury and Claim for
          Continuation of Pay/Compensation (CA-1) forms were not available for review.
       •	 For five claims, the employee did not completely fill out the CA-1 form and left fields blank.
       •	 For 12 claims, the claimant’s pay grade and step per the CA-1 form did not agree to the leave
          and earnings statement (LES).
       •	 For 11 claims, the claimants are no longer ICE employees and as a result we were unable to
          review LES’s for the purpose of our audit.
       •	 For two claims, the employee did not include their grade/step information on the CA-1 form.
       •	 For one claim, the Social Security number (SSN) per the CA-1 form did not match the LES
          and the employee did not include their grade/step information on the CA-1 form.
       •	 For one claim, the employee did not authorize their CA-1 form with their signature.
       •	 For one claim, there was no SSN on the CA-1 form and the employee’s grade/step per the
          CA-1 form did not agree to the LES.

       Recommendation:
       We recommend that ICE OHC fully implement the draft directive related to FECA and conduct a
       periodic review of FECA claims in order to assess the accuracy of the claim information and to
       confirm ICE’s ownership of the claim.




                                                  34

                                                                                                Section V
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2011


ICE – FMC 11-12 – Inadequate Controls over New Hire Ethics Briefings (NFR No. ICE 11-15)

       During testwork over a sample of 15 new hires from October 1, 2010 through June 30, 2011, we
       noted that one individual was recorded as not having completed the required new hire ethics
       briefing. At the time of interim testwork, the individual was within 90 days of his hire date and
       we noted no exception. However, at year-end, we performed follow-up procedures and the ICE
       Ethics Office confirmed that the individual did not complete the required training until October 5,
       2011, over 90 days from his initial hire date.

       Recommendation:
       We recommend that ICE continue to follow existing policies and procedures related to ethics
       briefings for newly hired employees.

ICE – FMC 11-13 – Subject to Availability of Funding Agreements not Obligated in FFMS at
Outset of Agreement (NFR No. ICE 11-16)

       We noted that Enforcement and Removal Operations (ERO) did not record a dollar value for
       obligations in FFMS under subject to availability of funding (SAF) agreements prior to incurring
       costs under the agreements. ERO occasionally incurs prompt payment interest because of the
       timing lag between when it receives an invoice and when it has funds available in FFMS to pay
       the invoice.

       We noted that due to the prior year NFR, ICE OAQ, OCFO, and ERO have implemented
       guidelines to reduce the number of SAF clauses; however, these offices continue to draft new
       policies and procedures to address SAF clauses and do not expect full corrective action to be
       complete until September 30, 2012.

       Recommendations:
       We recommend that ICE:
       •	 ERO stagger the period of performance for contracts to more closely align funding needs
          with apportionments.
       •	 Implement strengthened monitoring by OCFO in order to prioritize funding for mission
          critical contracts.
       •	 Develop and implement procedures for identifying and rejecting invoices for services that are
          not duly authorized.

ICE – FMC 11-14 – Ineffective Internal Controls over Leave Audit Process (NFR No. ICE 11-17)

       During the walkthrough for the leave audit process, we noted that there was a 40% decrease in the
       number of leave errors in the past year. However, approximately 1,000 leave errors still existed
       as of May 7, 2011. We noted that differences in the leave balances between the NFC records and
       WebTA reports were not being researched and resolved timely.




                                                   35

                                                                                               Section V
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


       Recommendation:
       We recommend that ICE OHC:
       •	 Ensure that all employees responsible for timekeeping are appropriately trained in all aspects
          of the time and attendance system.
       •	 Analyze error reports to identify any common causes related to errors in the timekeeping
          process.
       •	 Review and report to the Program Office on timekeeping errors to ensure correction no later
          than two pay periods from the date of official notification.
       •	 Implement Timekeeping and Attendance Directive that establishes responsibilities for all
          employees involved in the timekeeping process and sets internal controls for leave errors.

ICE – FMC 11-15 – ICE Does Not Accrue Capitalized Costs Incurred at Year-end for Software and
Leasehold Improvement Projects (NFR No. ICE 11-18)

       We noted the following irregularities and misstatements in PP&E related to the failure to
       completely and accurately accrue for capitalized costs:
       •	 ICE OFM recorded accruals for LHIs and LHIs in process for Management Directive (MGT)
          in the fourth quarter of FY 2011, but then mistakenly reversed the accrual.
       •	 ICE OFM accrued for its own leasehold improvement costs at September 30, 2011, but not its
          IUS projects.
       •	 ICE OFM does not have policies and procedures in place to accrue for capitalized costs at
          year-end for its customer agencies.

       Recommendations:
       We recommend that ICE OFM:
       •	 Continue to work closely with customers within ICE and at serviced components to clarify
          data needs and definitions and to adhere to data call deadlines.
       •	 Develop more comprehensive policies and procedures surrounding the accrual of capitalized
          PP&E costs to ensure consistentcy and minimize the chance for errors.

ICE – FMC 11-16 – Inadequate Internal Controls over Tracking of IUS Projects (NFR No. ICE 11­
19)

       We noted that ICE failed to record capitalizable costs for IUS development as they were incurred
       in FY 2011. During year-end testwork, we identified $724,086 of expenses to services performed
       for the Sharepoint project in the second quarter and $739,436 of expenses related to services
       performed in the third quarter being added to IUS as a fourth quarter addition.

       Recommendation:
       We recommend that ICE develop and implement comprehensive policies and procedures to
       assist in the appropriate tracking and recording of IUS projects. These policies and procedures
       will ensure that all pertinent ICE offices work collaboratively to resolve the control areas
       identified.




                                                  36

                                                                                               Section VI
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


VI.    NATIONAL PROTECTION AND PROGRAMS DIRECTORATE (NPPD)

NPPD – FMC 11-01 – Inadequate Internal Controls over Reporting of Government Furnished
Equipment Asset Disposals (NFR No. NPPD 11-01)

       During testwork over a sample of five items from the capitalized asset disposal population at June
       30, 2011, we noted that one asset was disposed of in FY 2010, but was not recorded as a disposal
       in FFMS until FY 2011.

       Recommendation:
       We recommend that NPPD follow existing policies and procedures related to the reporting of
       fixed assets and fixed asset disposals. We also recommend that NPPD continue to increase
       communications in this regard with its financial reporting provider, ICE.

NPPD – FMC 11-02 – Subject to Availability of Funding Agreements Not Obligated in FFMS at
Outset of Agreement (NFR No. NPPD 11-02)

       We noted that the Federal Protective Services (FPS) did not record a dollar value for obligations
       in FFMS for SAF agreements prior to incurring costs on the agreements.

       We also noted that it is FPS’s policy to obligate $0 in FFMS for an agreement while costs are
       incurred. Additional funding is added to the obligation after the receipt of an invoice if the
       funding in FFMS is not sufficient to pay the invoice.

       Recommendations:
       We recommend that NPPD:
       •	 Obtain specific, written representations from internal legal sources and external regulatory
          sources to support the practice if NPPD continues to utilize this practice.
       •	 Consider implementing procedures to record obligations as they occur while minimizing the
          potential impact (e.g., potential Anti-deficiency Act violations) to customer organizations.

NPPD – FMC 11-03 – Inadequate Internal Controls over Reporting of IUS Projects (NFR No.
NPPD 11-04)

       We noted that NPPD performed a review of IUS and identified two programs that create IUS but
       did not report any costs as capitalized as of September 30, 2011. NPPD reviewed expenses on all
       contracts on the two programs and noted that the capitalized costs and non-capitalized costs could
       not be separated and identified based on the supporting documentation available at the time of the
       review and therefore developed a methodology for determining the effect on the balance sheet.
       We noted that NPPD asset management failed to report capitalized costs for IUS projects in a
       timely manner for inclusion in the general ledger.




                                                   37

                                                                                            Section VI
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2011


      Recommendations:
      We recommend that NPPD:
      •	 Work with sub-components and programs to ensure proper tracking and reporting for all IUS.
      •	 Work with the OAQ and Office of Procurement Operations to ensure each contract includes
          the proper property reporting clause and to add/modify contract line item
          numbers/appropriate accounting strings specifically for property.

NPPD – FMC 11-04 – Inadequate Internal Controls over Reporting of Equipment (NFR No. NPPD
11-05)

      When performing testwork over PP&E additions for the fourth quarter of FY 2011, we noted one
      instance where NPPD recorded capitalized costs related to government furnished equipment
      (GFE) in an untimely manner and one instance where NPPD recorded capitalized costs related to
      GFE at the incorrect amount.

      Recommendations:
      We recommend that NPPD – US-Visitor and Immigrant Status Indicator Technology’s Asset
      Management Team:
      •	 Review its GFE and personal property to ensure all assets are properly accounted for in the
         asset management system.
      •	 Revise management policies and procedures for both GFE and government held personal
         property to ensure internal controls are established and implemented to properly account for
         property.

NPPD – FMC 11-05 – Untimely Reporting of Leasehold Improvements (NFR No. NPPD 11-06)

      When performing testwork over PP&E additions for the fourth quarter of FY 2011, we noted that
      two items that were classified as LHIs were not capitalized in a timely manner as the invoices
      included expenses incurred in prior years.

      Recommendation:
      We recommend that NPPD continue to work with ICE OFM to improve policies and procedures
      to ensure that capital projects are identified at the time of obligation, including LHIs.




                                                 38

                                                                                               Section VII
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2011


VII.   SCIENCE AND TECHNOLOGY DIRECTORATE (S&T)

S&T – FMC 11-01 – Inadequate Internal Controls over Reporting of Construction in Progress and
Buildings (NFR No. S&T 11-01)

       During testwork over a sample of five property additions as of June 30, 2011, we noted that two
       sample items were for construction services received prior to FY 2011. We noted that CIP costs
       for the National Bio Agro Defense Facility in FY 2007 – 2009 were not capitalized until FY 2011
       and CIP costs incurred in FY 2010 were not capitalized until receipt of invoices in FY 2011.

       Recommendations:
       We recommend that S&T:
       •	 Implement policies and procedures to accurately and timely capture and record capitalized
          contruction in progress costs.
       •	 Develop policies and procedures for the accrual of capitalized constuction in progress costs.

S&T – FMC 11-02 – Untimely De-obligation of UDOs (NFR No. S&T 11-02)

       We selected a statistical sample of 25 items from the population of aged UDOs as of June 30,
       2011, and noted that eight items were invalid, and should have been de-obligated. We noted that
       these obligations were approved for de-obligation in prior fiscal years but had S&T had not yet
       completed the review or de-obligation process.

       Recommendations:
       We recommend that S&T:
       •	 Perform a targeted review for “stale” obligations.
       •	 Continue to utilize quarterly verification and validation procedures for UDOs.

S&T – FMC 11-03 – Inadequate Controls over New Hire Ethics Briefings (NFR No. S&T 11-03)

       We selected a sample of ten new hires from S&T from October 1, 2010 through June 30, 2011,
       and noted that a sign-in sheet for attendance at a hew hire ethics orientation could not be
       produced for one individual. We noted that the individual was employed at an out of town
       location, but noted that employees at remote locations are subject to the training requirements, but
       can fulfill the training electronically or by reviewing printed materials. We noted that the
       employee did not fulfill any of the requirements.

       Recommendation:
       We recommend that S&T continue to utilize and enforce policies related to ethics briefings for
       newly hired employees.




                                                   39

                                                                                            Section VII
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


S&T – FMC 11-04 – Insufficient Internal Controls to Ensure Timely Reporting of IUS in
Development and Personal Property (NFR No. S&T 11-04)

       During testwork over capitalized property additions for the fourth quarter of FY 2011, we noted
       that S&T capitalized $355,142 of costs related to services received in the third quarter of FY
       2011 for the First Responders Communities of Practice Beta version project and Biodefense
       Knowledge Management System.

       Recommendations:
       We recommend that S&T:
       •	 Implement policies and procedures to accurately and timely capture and record capitalized
          software costs.
       •	 Develop policies and procedures for the accrual of capitalized software costs.




                                                  40

                                                                                                   Section VIII
                                     Department of Homeland Security
                                     Financial Management Comments
                                           September 30, 2011


VIII.   TRANSPORTATION SECURITY ADMINISTRATION (TSA)

TSA – FMC 11-01 – Employee Record Management and Compliance with Human Resource
Related Laws (NFR No. TSA 11-01)

        We noted that TSA has ineffective processes and controls to ensure that employee benefits are
        properly supported by available documentation within the employee personnel files.

        Specifically we noted the following conditions related to a lack of documentation:
        •	 One instance in which the SF-2817 (FEGLI) form was not included in the electronic Official
           Personnel Folder (eOPF).
        •	 Five instances in which the SF-2809 (Federal Employees’ Health Benefits (FEHB)),
           evidencing the non-election or waiver of benefits, was not included in the eOPF.
        •	 Two instances in which the SF-2809 (FEHB), evidencing the employees’ current benefits
           election, form was not included in the eOPF.
        •	 Six instances in which the current Thrift Savings Plan (TSP) election form was not included
           in the eOPF.

        Recommendation:
        We recommend that TSA continue to monitor the service provider to verify that all of the
        supporting documentation for benefit and TSP elections are updated in the eOPF in a timely
        manner for both new hires and employee changes. This ongoing review will ensure the service
        provider is following the federal guidelines pertaining to recordkeeping.

TSA – FMC 11-02 – Accrued Payroll Controls (NFR No. TSA 11-02)

        We noted that policies and procedures over the initiation and approval of personnel actions (SF­
        52s) at individual airports are not sufficient in distinguishing the applicable roles of the initiators
        and approvers of personnel actions in HRAccess. KPMG noted an individual could be assigned
        both the role of an initiator and an approver of personnel actions in the system and perform both
        actions on a single personnel action request thus not effectively applying segregation of duties.

        Specifically we noted the following:
        •	 Five instances in our testwork in which the initiator and approver of the action were the same
           individual.

        We also noted that the quality assurance (QA) review of personnel actions processed in the
        EmpowHR system is not operating effectively.

        Specifically we noted the following:
        •	 Two instances where the approver was the same as the processor.
        •	 Two instances in which the QA reviewers were not assigned the role to perform the review in
           EmpowHR.




                                                      41

                                                                                             Section VIII
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


       Recommendations:
       We recommend that TSA:
       •	 Modify its personnel system to not allow the initiator and approver to be the same individual.
       •	 Monitor the service provider’s QA review of personnel actions to ensure it is operating
          effectively.

TSA – FMC 11-03 – Ineffective Controls over the Time and Attendance Process (NFR No. TSA 11 ­
04)

       We noted that TSA lacks defined policies and procedures to ensure timely review and approval of
       leave requests.

       Controls over the review and approval of timesheets are not operating effectively. Specifically,
       we noted:
       •	 Lack of evidence of timely supervisor review and approval of timesheets and additional
          supporting documentation (eight instances). We noted that overtime and compensatory time
          hours were approved prior to submission to NFC for processing.
           -	 4 of 104 overtime requests were not approved prior to the employee working the
                overtime hours.
           - 4 of 104 instances of Compensatory Time hours worked prior to the supervisor
                approving the hours.
       •	 Lack of evidence of supervisor review and approval of timesheet and additional supporting
          documentation (one instance):
           -	 1 of 104 instances in which evidence ofapproval for overtime hours worked was not
                available.
       •	 Untimely approval of timesheet by supervisor (one instance):
           -	 1 of 104 instances where the timesheet was signed 4 days prior to the pay period end
                date.

       Recommendation:
       We recommend that TSA continue to provide training to improve the awareness of effective
       control of the time and attendance processes. This training should be accomplished by initial
       training of personnel newly assigned to time and attendance duties as well as refresher training
       for those employees performing these tasks. The refresher training should be available both
       formally, through the Online Learning Center, and informally, through broadcasts and monthly
       agency-wide conference calls.

TSA – FMC 11-04 – GAO Checklist (NFR No. TSA 11-08)

       We noted that the GAO checklist review was not designed or operating effectively as of March
       31, 2011.

       Specifically, we noted:
       •	 Two instances where TSA indicated “Y,” or “yes,” for the existence of information in the
          financial statements when the accounting policy or information was not disclosed or
          applicable to the March 31, 2011 AFR. Specifically we noted:



                                                   42

                                                                                             Section VIII
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


          -   TSA answered “yes” that operating materials and supplies are valued at historical cost
              when TSA has adopted the purchase method to account for operating materials and
              supplies.
          - TSA answered “yes” to questions related to liabilities associated with social insurance
              (specifically related to unemployment insurance) when TSA does not operate social
              insurance programs.
      •	 Two instances where TSA indicated “Y,” or “yes,” for the existence of information in the
         financial statements when the accounting policy or information was not disclosed or
         applicable to the March 31, 2011 AFR. We noted no additional explanatory language was
         included to clarify to the user that the response of yes is due to TSA having a policy to
         account for the item in the event a transaction were to occur. Specifically we noted:
          - TSA answered “yes” to questions related to the accounting treatment for capital leases
              when in the March 31, 2011 AFR TSA did not include a liability or disclosure for capital
              leases.
          -	 TSA answered “yes” to questions related to the accounting treatment of transfers of
              multi-use heritage assets when the March 31, 2011 disclosure noted TSA classified all
              heritage assets as collection type assets.
      •	 One instance where TSA indicated that a policy is not applicable when the accounting policy
         was in fact applicable to the agency. Specifically we noted:
          -	 TSA answered “no” to questions related to donated property, indicating that the agency
              did not have donated property. As a result of procedures performed during our FY 2011
              site visits KPMG noted the Lackland K-9 facility has 10 buses and 2 trains that were
              donated to the agency.

      Recommendation:
      We recommend that TSA establish a more formal and thorough GAO 2010 Checklist review
      process that includes input from each of the OFM branches and other TSA offices that are
      responsible for properly accounting for TSA’s asset, liability, revenue, and expense transactions.

TSA – FMC 11-05 – UDO Process (NFR No. TSA 11-10)

      We noted that TSA lacks a policy to ensure COTR status file used for the verification and
      validation review is complete. Specifically, there is no policy requiring a review of the exclusion
      file to ensure obligations are properly included in the verification and validation review.

      Recommendation:
      We recommend that TSA Funds Control Program Support Branch (FCPSB) should no longer use
      the COTR Status File as a resource to determine validity of a UDO. The information utilized to
      determine the status of a contract should be limited to information obtained from the Core
      Accounting System, the Contract Closeout spreadsheet and previously reviewed verification and
      validation files, and research compiled by FCPSB.




                                                  43

                                                                                              Section VIII
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2011


TSA – FMC 11-06 – Review of Journal Entries (NFR No. TSA 11-12)

       We noted that controls related to journal entry reviews were not fully effective during the current
       year. Specifically, we identified two sample items that were recorded to correct entries that were
       reviewed, approved, and posted in error in prior months.

       Recommendations:
       We recommend that TSA:
       •	 Ensure that journal entry preparers and reviewers take yearly journal entry training.
       •	 Ensure that the journal entry training provided covers journal entry preparation, lessons
          learned from the previous year, and requirements for journal entry review and approval.

TSA – FMC 11-07 – Accounts Payable Process (NFR No. TSA 11-14)

       During our walkthrough of the A/P process at TSA, we noted a lack of controls in place to
       evidence COTR review of Intra- Governmental Payment and Collection (IPAC) payments.

       Recommendations:
       We recommend that TSA:
       •	 Document the review process for IPACs, perform a gap analysis, and implement
          improvements to ensure timely IPAC payment review and approval. 	Specifically:
           - For the recurring IPAC payment type agreements (majority of IPAC transactions):
              •	 Document the “As-Is” process and controls related to the creation and management
                  of agreements that result in recurring payments.
              •	 Determine if controls for recurring payments are appropriately designed related to:
                       - Establishing the agreement.
                       - Establishing the recurring payment.
                       - Stopping payments as a result of performance issues.
                       - Automatically stopping payments at the end of the agreed-upon payment
                          period.
                       - Verifying IPAC costs are in line with agreement terms.
           - For the non-recurring IPAC payment type agreements:
               •	 Document the “As-Is” process and controls related to the creation and management
                   of agreements that result in non-recurring payments.
               •	 Determine if controls for non-recurring payments are appropriately designed related
                   to:
                        - Establishing the agreement.
                        - Managing payments, including obtaining timely COTR approval.
                        - Managing final agreement reconciliation, payment and closeout.
           -	 Perform a gap analysis and develop a Change Action Plan related to the needed
               improvements.
       •	 Document authorization received from program offices for IPACs cleared in coordination
          with the Accounting Branch.




                                                   44

                                                                                           Section VIII
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2011


TSA – FMC 11-08 – Travel Authorization Approval (NFR No. TSA 11-18)

      As a result of our testwork to ensure that travel authorizations and vouchers are properly
      approved, coded, and recorded into the FedTraveler System through June 30, 2011, KPMG noted
      the following:
      •	 TSA lacks policies and procedures that explicitly address variations to the standard travel
          document approval process. In addition, TSA lacks documented policies and procedures
          related to multi-trip travel authorizations including defined travel authorization thresholds
          review and approval in which to verify the appropriateness of authorized dollars.
          Specifically:
           - In one instance, the Federal Air Marshall Service (FAMS) voucher had evidence of only
               one level of approval.
           -	 In two instances in which multi-trip travel authorizations were approved, the approval
               chain did not detail the specific trip authorization that was approved. Further, the
               original authorization for one of the multi-trip authorizations was for $1,000,000.
      •	    Controls over the travel authorization and voucher process were not operating effectively.
            Specifically:
           - In one instance, a travel authorization was created outside of TSA’s policies and
               procedures in place (FY 2011 Travel Waiver Request for International Personnel)
               related to the Office of Global Strategies.
           -	 In two instances, the sample (one authorization and one voucher) was posted by TSA in
               error.
           - In two instances, TSA posted an unsupported voucher against an authorization and
               omitted an approved voucher from proper posting against an authorization.

      Recommendations:
      We recommend TSA:
      •	 Publish a travel handbook that accompanies Management Directive 1000.6 in order to
         address the FAMS approval process and other deviations from standard policy.
      •	 Implement plans to monitor large dollar travel authorizations on a monthly basis that include
         following up with the program offices to ensure appropriate approvals of travel dollars.
      •	 Implement a requirement that approvers and certifiers take annual training to reinforce their
         understanding of travel policy and their roles in the approval process over travel
         authorizations and travel vouchers.

TSA – FMC 11-09 – UDOs Documentation (NFR No. TSA 11-22)

      We noted that controls were not fully effective to ensure contract management policies,
      procedures, and controls are being properly adhered to. KPMG noted the following related to our
      June 30, 2011 and September 30, 2011 UDO balance testwork:
      •	 Four instances where the sample amount did not agree to the supporting documentation.
      •	 A number of instances related to documentation where the information entered into the
          general ledger (GL) did not agree to the supporting documentation. Specifically:
           -	 Nine instances where the sample detail (e.g. invoice number, contract number, object
               class, vendor type) did not agree to the supporting documentation.
      • A number of instances where transactions were not recorded in the GL timely. Specifically:



                                                 45

                                                                                             Section VIII
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


           -  Two instances where based on the POP ending date, the contract was not de-obligated
              timely.
          - Seven instances where monthly rental charges were incurred prior to the execution of a
              signed obligation.
          - Three instances where the sample was not recorded in the GL timely.
          - One instance where an obligation was posted to the GL prior to execution.
       •	 One instance where the obligation did not have a valid POP at September 30, 2011.

       Recommendations:
       We recommend that TSA:
       •	 Strengthen policies and controls to ensure accurate undelivered order balances.
       •	 Work with U.S. Coast Guard Finance Center (FINCEN) to document the root cause and
          systemic corrections associated with purchase order GL sync issues.
       •	 OFM should work with FINCEN to obtain a monthly listing of transactions that have been
          corrected and their financial impact to the GL and the purchase order modules.

TSA – FMC 11-10 – Non-Compliance with the Debt Collection Improvement Act of 1996 (NFR No.
TSA 11-24)

       In FY 2010, TSA was not in compliance with the Debt Collection Improvement Act of 1996
       (DCIA) and we issued NFR TSA-10-06. During FY 2010, TSA developed an internal standard
       operating procedure manual (ISOP) to ensure compliance with DCIA. Although an ISOP has
       been adopted and approved, the ISOP is not properly designed to ensure full compliance with the
       provisions of DCIA for FY 2011. The ISOP does not address when TSA should send a demand
       letter to a debtor. Further, the ISOP indicates that referrals are only made on a quarterly basis.

       Specifically, we noted the following instances of non-compliance:
       •	 For 12 of 74 sample items selected, demand letters were not sent to the debtor in a timely
          fashion.
       •	 For five of 74 sample items selected, TSA did not refer eligible, outstanding debt to Treasury
          within 180 days.

      Recommendations:
      We recommend that TSA:
      •	 Continue efforts to ensure full compliance with the DCIA.
      •	 Office of Revenue should work with the TSA Accounting Branch and Financial Policy and
         Travel Branch to ensure that the DCIA SOP is properly edited to address when TSA sends a
         demand letter to debtors.
      •	 Office of Revenue should ensure that the SOP is properly edited to ensure Treasury referrals
         are consistent with DCIA guidelines.




                                                   46

                                                                                               Section VIII
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


TSA – FMC 11-11 – Lease Accounting and Disclosure (NFR No. TSA 11-29)

      Controls over the receipt of quarterly data call from the office of real estate in order to update the
      Master Lease Listing (MLL) are not operating effectively. Specifically KPMG noted five
      instances where General Services Administration (GSA) occupancy agreements identified in June
      30, 2011 UDO testwork were not included in the MLL as of September 30, 2011.

      The OFM Financial Management Analysis Group (FMAG) issues quarterly data calls to three
      different entities within TSA:
      •	 The Office of Field Real Estate Services (OFRES)
      •	 Building Management Services (BMS)
      •	 Law Enforcement FAMS, OAQ

      Each entity is responsible for different areas of real estate contracts, with the bulk of the leases
      being occupancy agreements (OAs) between GSA and TSA; these OAs are almost exclusively
      managed by OFRES. FMAG relies on the responses from these three offices, as well as other
      compensating controls, to prepare the quarterly MLL for all of TSA. In our test work, we noted
      several instances where OAs that were included in the June 30, 2011 MLL were not included in
      the September 30, 2011 MLL. TSA was not able to provide an explanation for the exclusion of at
      least five of these leases.

      While reviewing the procedures followed by FMAG in compiling the quarterly MLLs, we noted
      that FMAG provides a master listing to the three real estate offices during each data call and asks
      them to confirm any additions or deletions to the listing. We observed that there are usually
      several rounds of updates to the master listing, instead of one complete and conclusive update
      from each of the three real estate offices. We also observed that not all of the real estate offices
      respond by updating the listing provided by FMAG; sometimes the response is an email with
      comments, an email with an attached lease agreement, or even phone calls. Finally, we observed
      that none of the three real estate offices provide a master listing of their own to FMAG. FMAG
      responded that they believed two of the offices do not have master listings and one of the offices
      has multiple listings but not a consolidated listing. As a result of our review, we were not able to
      rely on the controls in place by FMAG to compile the MLL from the three real estate officers.

      Recommendations:
      We recommend TSA:
      •	 Chief Administrative Officer (CAO) implements a TSA-wide real property management tool
         to monitor all TSA leases and occupancy agreements. The real property management tool
         should be designed to capture at a minimum the following information for every lease:
          - Lease Agreement Number
          - Capital vs. Operating Lease indicator
          - Cancelable vs. Non-Cancelable indicator
          - Lease Start Date
          - Lease End Date
          - Lease Disposition (lease expired, lease cancelled, lease replaced by lease no.XXX)




                                                   47

                                                                                             Section VIII
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


      •	 Until a TSA-wide lease tracking database can be implemented, the CAO, through the OFRES
         maintain the official MLL for TSA, and coordinate this list with the other two TSA offices
         with lease authority (Building Management Service, and Office of Acquisition).
      •	 The MLL prepared by CAO reports all active leases for the period (quarterly), and includes
         the same information required in the above recommendation.
      •	 The MLL maintained by CAO should include a section for expired/terminated leases that
         includes the same information provided for active leases; as well as a field that explains the
         disposition of the lease (lease expired, lease cancelled, lease replaced by lease no.XXX).
      •	 The CAO work with OFM to ensure CAO’s process for identifying and tracking leases
         provides OFM with the information necessary to report leases in the financial statements and
         prepare JVs as needed.

TSA – FMC 11-12 – Accounting for Advances and Prepayments (NFR No. TSA 11-30)

      TSA lacks effective internal controls to accurately review potentially capitalizable transactions
      recorded in the general ledger for appropriate presentation in the financial statements.

      Specifically we noted:
      •	 Advances were not properly identified or capitalized as of the balance sheet date.
      •	 One recorded advance was not properly liquidated due to goods and services being received.

      Recommendations:
      We recommend that TSA:
      •	 Perform a quarterly analysis of agreements with advances to ensure proper recordation of
         expenses is timely posted and to maintain the necessary supporting documentation to support
         balances reflected in the trial balance.
      •	 Perform a formalized monthly reconciliation of advances that is reviewed and approved by
         management.
      •	 Continue to work with USCG FINCEN to properly identify advances that have been paid via
         the IPAC.
      •	 Implement policies and procedures to ensure that agreements that are prepaid are identified,
         using a multi step approach, and reported accurately in the financial statement.

TSA – FMC 11-13 – UDOs Documentation – Federal Air Marshals (NFR No. TSA 11-31)

      We noted that controls were not operating effectively to ensure expenditures are appropriately
      posted in the general ledger against authorized, obligated dollars in the budgetary accounts (e.g.
      4801).




                                                  48

                                                                                      Section VIII
                           Department of Homeland Security
                           Financial Management Comments
                                 September 30, 2011


Recommendations:
We recommend that TSA:
•	 Initiate a structural change to the mission scheduling process that will mitigate a number of
   key cost variables that have historically complicated the mission travel projection process.
•	 Initiate a joint effort between the Financial Management Division of FAMS and the Offices
   of Flight Operations and Field Operations to conduct a full-scale review of its mission travel
   financial planning and oversight processes. The goal of this review will be to enhance
   internal coordination and understanding and to further strengthen the projecting techniques
   used to develop mission travel estimates.
•	 Provide a written report of FAMS’ findings and recommendations to TSA OFM for review
   and comment.
•	 Recommended corrective actions require OFM approval and will be implemented upon
   mutual agreement.




                                           49

                                                                                                Section IX
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


IX.   UNITED STATES COAST GUARD (USCG or Coast Guard)

USCG – FMC 11-01 – Financial Management Oversight (NFR No. USCG 11-03)

      While Coast Guard financial management oversight exists and remediation efforts related to
      entity-level controls continue, weaknesses in the entity-level control structure continue to affect
      Coast Guard financial management as follows:

      Based on our September 30, 2011 testwork, we noted that the Coast Guard has not fully
      implemented an internal control environment that supports the philosophy and operating style,
      commitment to competence, organizational structure, human resources policies and practices, and
      integrity and ethical values. Specifically:
      •	 The Coast Guard has not developed adequate controls to track and monitor whether the
          training and continued education courses have been completed by civilian employees to
          ensure maintenance and improvement of their competencies for their jobs.
      •	 The Coast Guard has not developed adequate controls to track whether all employees receive
          the Standards of Ethical Conduct upon entry into the USCG. Specifically, USCG was unable
          to provide evidence to support that Standards of Ethical Conduct was received and reviewed
          within the first 90 days of duty for eight out of eight civilian employees hired during October
          1, 2010 through December 31, 2010.
      •	 The Coast Guard has not developed adequate controls to support employee’s awareness of the
          existence of the DHS OIG Hotline for reporting information on waste, fraud, abuse, and
          corruption in the workplace to the OIG. Specifically, three out of 10 employees were not
          aware of the existence of the DHS OIG Hotline through inquiries performed.

      Recommendations:
      We recommend that the Coast Guard:
      •	 Develop a new system to track and monitor whether training and continued education courses
         have been completed by civilian employees to ensure maintenance and improvement of their
         competencies for their jobs.
      •	 Develop a new system to track and document whether new civilian employees complete
         initial ethics training.
      •	 Develop a new system to raise awareness of the DHS OIG Hotline for reporting information
         on waste, fraud, abuse, and corruption in the workplace to the OIG.

USCG – FMC 11-02 – Accrued Payroll and Unfunded Leave Accrual (NFR No. USCG 11-10)

      We noted that the Coast Guard does not perform a timely reconciliation of annual leave
      discrepancies identified between payroll related systems.

      Recommendations:
      We recommend that the Coast Guard:
      •	 Accelerate the rollout of electronic timekeeping to encompass all employees.
      •	 Re-direct staff as available to reconcile differences in civilian employee leave balances
         between payroll related systems.



                                                   50

                                                                                               Section IX
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


      •	 Establish a more robust procedure for comparing civilian employee leave balances in payroll
         related systems each pay period and reconciling the differences in a timely manner.

USCG – FMC 11-03 – Financial Disclosure Reports (NFR No. USCG 11-13)

      We noted that the Coast Guard had not developed adequate controls to track and monitor the
      filing and review of the Confidential Financial Disclosure Report (CFDRs), including document
      retention for the investigation of any violation and corrective actions taken to ensure compliance.

      We selected a sample of 15 CFDRs from the 2011 filed CFDRs and noted the following
      exceptions where the CFDR filing process was not properly followed. Specifically:
      •	 One CFDR was reviewed after the 60 day reviewing period.
      •	 One CFDR was signed by the employee after the date CG-0944 received the form.
      •	 Two CFDR filers did not properly complete all sections required for reporting transactions
          which could represent a potential conflict of interest.

      We noted the Coast Guard has not developed adequate controls to track and monitor compliance
      with the Coast Guard code of conduct – Standards of Ethical Conduct, including evidence of
      compliance with ethics training requirements.

      While the Coast Guard maintained a centralized list of positions required to file a CFDR, we
      noted the Coast Guard does not maintain a centralized list of employees required to file a CFDR
      and attend ethical training to monitor compliance with CFDR filing and training requirements.
      Further, we noted the Coast Guard does not have procedures in place to ensure the completeness
      or accuracy of the list of individuals required to file CFDRs or Public Financial Disclosure Report
      (PFDRs).

      Recommendation:
      We recommend that Coast Guard evaluate and strengthen its internal controls related to CFDR
      and PFDR filings before December to ensure full compliance with all CFDR and PFDR program
      rules.

USCG – FMC 11-04 – Operating Materials and Supplies (NFR No. USCG 11-16)

      We noted gaps in policies and procedures that prevent consistent implemented control procedures
      between Aviation Logistics Center (ALC) and Coast Guard Air Stations. Inconsistent document
      retention requirements, and non-standardized forms, can increase the risk of control deficiencies.
      More specifically,
      •	 ALC could not provide source documentation for eight out of the 15 selected issuances
          between October 1, 2010 to June 30, 2011.
      •	 Source documentation for two out of 15 receipts could not be provided because the
          information was not properly retained by Coast Guard Air Stations.




                                                  51

                                                                                              Section IX
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


       During our substantive testing procedures, we noted the following:

      As of June 30, 2011:
      •	 The ALC inventory system calculates the weighted average pricing for intragovernmental
         related purchases using the price at which the asset is ordered and not the amount actually
         paid. As a result, we noted two known errors of approximately $30 and a projected error of
         $341,312.

      September 30, 2011:
      •	 Similar to June 30, 2011 findings, we noted that for one sample, the incorrect purchase price
         was used to calculate the weighted average pricing. As a result, we noted a known
         overstatement of $123 and a projected overstatement of $58,248.
      •	 We noted that the quantity on hand for one sample was incorrect as of September 30, 2011,
         causing a $12,607 known understatement and a projected understatement of $198,599.

       Recommendations:
       We recommend that Coast Guard:
       •	 Closely monitor the implementation of existing Coast Guard requirements to insure
          compliance at Coast Guard Air Stations.
       •	 Conduct an analysis of the impact and materiality of using ordered price instead of actual
          price paid in the calculation of weighted average pricing.

USCG – FMC 11-05 – Human Resources Compliance with Laws and Regulations (NFR No. USCG
11-20)

       While performing compliance testwork related to Thrift Savings Plan (TSP) elections, we noted
       the Coast Guard was unable to provide the TSP-1 (TSP election form) for one employee.
       Additionally, we noted the information provided to evidence the employee’s most current TSP
       election indicated a contribution amount of $200 per pay period while the employee’s TSP
       contribution made in pay period 12 was $449. As such, we were unable to verify that the
       appropriate deduction for the employee was taken in pay period 12.

       Recommendation:
       We recommend that Coast Guard implement a review process to compare employee TSP
       elections to the documented TSP deduction being used by the payroll service provider and
       reported on the employees’ leave and earnings statements.

USCG – FMC 11-06 – Actuarial Medical Liabilities (NFR No. USCG 11-24)

       During FY 2011, the Coast Guard continued to implement internal control and substantive
       procedures over medical payment information associated with direct care medical claims. While
       reviewing the sampling plan implemented to test direct care data, we noted the following related
       to its design and implementation:
       •	 Selecting only one line per invoice page and only two pages from each invoice may be
            insufficient for large volume invoices (i.e., invoices with many pages and pages with many
            lines).


                                                  52

                                                                                     Section IX
                           Department of Homeland Security
                           Financial Management Comments
                                 September 30, 2011


•	 The single stage projection methodology applied by the Coast Guard to project errors does
   not match the sample design. It may be more appropriate for errors to be projected through
   each stage of the sample, eliminating the need to artificially cap error rates.

Recommendations:
We recommend that Coast Guard:
•	 Consider the direct care test results from FY 2010 and FY 2011 as well as the conditions
   above to update the sampling plan for FY 2012.
•	 Consider eliminating the state of sampling requiring a page number to be randomly selected
   from a paper invoice patient category and then a line item to be randomly selected from the
   page.
•	 Consider the use of electronic reconciliations of the paper invoice patient categories to
   directly sample line items.




                                          53

                                                                                             Section X
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


X.     CONSOLIDATED (CONS)

CONS – FMC 11-01 – Departmental Standards of Conduct and Procedural Guidance for Financial
Disclosure Report Filing (NFR No. CONS 11-01)

      During our test work over entity-level controls, we noted that DHS:
      •	 Had not issued DHS’s Supplemental Standards of Conduct. Supplemental Standards of
         Conduct have been developed and approved by the Department. Prior to final issuance of the
         Supplemental Standards, a notice will be published in the Federal Register for public
         comment period. The Designated Agency Ethics Official (DAEO) cannot predict when the
         final approval and issuance in the Federal register will occur.
      •	 Had drafted a revised Secretarial Directive on the Standards of Conduct (Directive Number
         123-03). The final version was under internal review and required signature by the Under
         Secretary for Management.
      •	 Had not issued common department-wide procedural guidance for filing financial disclosure
         reports. This guidance had been drafted, but issuance was pending approval of the revised
         Management Directive on the Standards of Conduct.

       Recommendation:
       We recommend that the DAEO continue to work to issue procedural guidance for financial
       disclosure reporting, the Secretary’s statement on Standards of Conduct, and the Department’s
       supplemental ethics Standards of Conduct.

CONS – FMC 11-02 – Untimely Filing and Review of SF-278 Financial Disclosure Reports (NFR
No. CONS 11-03)

       Out of a sample of 15 SF-278 financial disclosures filed by SES personnel at NPPD, S&T, and
       MGT, one report had not been reviewed within 60 days of receipt by Office of General Counsel
       (OGC) Ethics Division as required by CFR 5 § 2634.605(a). OGC Ethics Division confirmed
       that additional information was not being sought in this case at that time.

       Additionally, one employee out of the sample of 15 had, as of October 11, 2011, not filed the
       required SF-278. OGC Ethics Division reported that the individual was a new promotion to SES
       and that he had been contacted several times to remind him to file.

       Recommendation:
       We recommend that DHS collaborate with the Chief Human Capital Officer to develop a
       procedure to ensure the Ethics Office is notified when new filers come on board and are
       promoted, temporarily assigned to, or leave a covered position.

CONS – FMC 11-03 – Preparation and Review of the Special-Purpose Financial Statements and
Notes (NFR No. CONS 11-05)

       During testwork over the closing package submission, we identified the following errors,
       resulting in DHS reopening Governmentwide Financial Report System (GFRS) to update the
       initial closing package submission.



                                                  54

                                                                                             Section X
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2011


      •	 GF004F – Trading Partner Summary Note Report – Statement of Changes in Net Position –
         Other Non-Budgetary Financing Sources – the September 2011 amount for Trading Partner
         16, Department of Labor, was misstated resulting in a $90 million overstatement error.
         Trading Partner 19, Department of State, was misstated resulting in a $46 million
         overstatement error. Trading Partner 49, National Science Fund, was misstated resulting in a
         $33 million overstatement error. Trading Partner 95, Independent and Other Agencies, was
         misstated resulting in a $169 million understatement error.
      •	 GF006 - Note 3 – Accounts and Taxes Receivable: in Section A – Taxes – the amounts
         recorded in Line 1 – Interest on uncollectible accounts were reported with the incorrect sign
         for FY 2011 and FY 2010, $405 million and $315 million, respectively.
      •	 GF006 – Note 04A – Direct Loans Receivable and Mortgage Backed Securities
          - In Section C – Components of Loans Receivable, Net – Current Year – Loans were
              incorrectly entered into the Federal Direct Student Loans category instead of Other,
              resulting in a $10 million error.
          -	 In Section D – Components of Loans Receivable, Net – Current Year – Loans were
              incorrectly entered into the Federal Direct Student Loans category instead of Other,
              resulting in a $85 million error.
      •	 GF006 – Note 06 – PP&E
          - In Line 3 – Capitalized acquisitions from the public, the current year PP&E amount was
              misstated resulting in a $42 million understatement error.
          -	 In Line 4 – Capitalized acquisitions from Government agencies, the current year PP&E
              amount was misstated resulting in a $42 million overstatement error.

      Recommendations:
      We recommend that DHS:
      •	 Conduct a comprehensive review of the current GFRS Financial Reporting Note preparation
         and review process and identify additional areas for automation and streamlining and
         document each Financial Reporting Note’s process in detail to show source data.
      •	 Enhance the quality control process of Component-provided data (manual notes and other
         text explanations) prior to consolidation and input into GFRS.

CONS – FMC 11-04 – Findings Related to the Disbursement Process (NFR No. CONS 11-06)

      In performing enhanced procedures over the disbursement control process at DHS, we noted the
      following:
      •	 A lack of policies and procedures to ensure a consistent, detailed review of invoices and
          related supporting documentation is completed prior to payment.
      •	 A lack of policies and procedures on how to define a proper invoice within a contract.
      •	 A lack in consistency regarding requirements contained within subcontractor agreements
          relating to the procedures to be performed when reviewing the invoices for the CO.
      •	 A lack of policies and procedures for the CO to follow to perform appropriate oversight over
          procedures performed by the subcontractor in relation to invoice verification.
      •	 Current policies and procedures over contract requirements do not address requirements for
          invoice submission to ensure adequate supporting documentation is received for personnel to
          perform an effective review prior to payment.




                                                 55

                                                                                       Section X
                           Department of Homeland Security
                           Financial Management Comments
                                 September 30, 2011


•	 Policies and procedures related to invoice review requirements are disaggregated into
   numerous documents.

Recommendations:
We recommend that DHS:
•	 Review Component policies and procedures and work with the DHS Office of the Chief
   Procurement Officer to develop Department-wide guidance to improve disbursement
   processes for contractual requirements and risks.
•	 Integrate internal control examination, reperformance, or other substantive test with improper
   payment testing to provide greater assurance that improper payment risks are mitigated.




                                           56

                                                                                                   Appendix A
                                  Department of Homeland Security
                     Crosswalk - Financial Management Comments to Active NFRs
                                         September 30, 2011


                                                                                         Disposition1
                                                                                         IAR            FMC
            NFR
Component                                    Description                            MW   SD       NC    No.
             No.
  CBP       11-01    Certification of Refund and Drawback Payments                                      11-01
                     Insufficient Retention Period for Documents that Support
  CBP       11-02                                                                                       11-02
                     Drawback Claims
                     Automated Commercial System (ACS) Deficiency over the
  CBP       11-03    Accumulation of Accelerated Payments Against a Drawback                            11-03
                     Bond
                     ACS Limitations – Review of Prior Related Drawback Claims
  CBP       11-04                                                                         I
                     and Selectivity for Underlying Consumption Entries
                     ACS Deficiencies over Non-Entity Accounts Receivable and
  CBP       11-05                                                                                  K
                     CBP’s Ability to Effectively Monitor Collection Actions
                     Lack of System Integration and Compliance with the United
  CBP       11-06    States Standard General Ledger (USSGL) at the Transaction                     K
                     Level Related to Inventory and Related Property, Net.
                     Weaknesses in CBP’s Processes Related to Asset Additions
  CBP       11-07    and Classification of Property, Plant, and Equipment (PP&E)    C
                     Related Transactions as of April 30, 2011
                     Weaknesses in CBP’s Processes Related to Asset Additions
                     and Classification of Property, Plant, and Equipment (PP&E)
  CBP       11-07b                                                                  C
                     Related Transactions as of July 31, 2011 and September 30,
                     2011
                     Improper Settlement of Assets, Including Untimely
  CBP       11-08    Capitalization of Assets from Construction in Progress (CIP)   C
                     as of April 30, 2011
                     Improper Settlement of Assets, Including Untimely
  CBP       11-08b   Capitalization of Assets from Construction in Progress (CIP)   C
                     as of July 31, 2011 and September 30, 2011
                     Weaknesses in CBP’s Processes Related to Asset Disposals as
  CBP       11-09                                                                   C
                     of April 30, 2011
                     Weaknesses in CBP’s Processes Related to Asset Disposals as
  CBP       11-09b                                                                  C
                     of July 31, 2011 and September 30, 2011
                     Lack of Controls over Timely Processing of Goods and
  CBP       11-10                                                                                       11-04
                     Services Received as of March 31, 2011
                     Lack of Controls over Timely Processing of Goods and
  CBP       11-10b   Services Received as of July 31, 2011 and September 30,                            11-04
                     2011
                     Weaknesses in the Monitoring and Review Process over
  CBP       11-11                                                                                       11-05
                     Fines, Penalties, and Forfeiture (FP&F) Cases
                     Lack of Implementation of Controls over Determining
  CBP       11-12                                                                                       11-06
                     Classification of Leases
                     Weaknesses in the Review of Weekly Entry Edit/Exception
  CBP       11-13                                                                                       11-07
                     Reports
                     Lack of Evidence of Review of the Drawback Auto/Deemed
  CBP       11-14                                                                                       11-08
                     (D28) Alert Report
  CBP       11-15    Detection of Excessive Drawback Claims                               I
  CBP       11-16    Deficiencies in the In-Bond Process                                  I
                     Deficiencies in the Public Financial Disclosure Reporting
  CBP       11-17                                                                                       11-09
                     Process
  CBP       11-18    Deficiencies in the Performance Management Program                                 11-10
  CBP       11-19    Weaknesses in Controls over Automated Journal Entries                              11-11




                                                         57

                                                                                                  Appendix A
                                 Department of Homeland Security
                    Crosswalk - Financial Management Comments to Active NFRs
                                        September 30, 2011


                                                                                        Disposition1
                                                                                        IAR            FMC
            NFR
Component                                   Description                            MW   SD       NC    No.
            No.
                    Weaknesses in Controls over the Bond Sufficiency Review
  CBP       11-20                                                                                      11-12
                    Process
  CBP       11-21   Incorrect Use of CBP Overtime Scheduling System Codes                              11-13
                    Lack of Formal Process for Determining Required
  CBP       11-22                                                                                      11-14
                    Supervisory Reviews
  CBP       11-23   Deficiencies over Monitoring of Ethics Requirements                                11-15
  CBP       11-24   Incomplete Undelivered Orders (UDOs) Quarterly Review                              11-16
                    Weaknesses Identified in the Bonded Warehouse and Foreign
  CBP       11-25                                                                        I
                    Trade Zone Processes and Procedures
  CBP       11-26   Weaknesses in the Trade Compliance Measurement Program                             11-17
  CBP       11-27   Management Oversight of PP&E                                   C
                    Untimely De-obligation of UDOs and Monitoring of Period of
  CBP       11-28                                                                                      11-18
                    Performance
                    Weaknesses in CBP’s Process Related to Recording
  CBP       11-29                                                                  C
                    Construction Percentage of Completion Amounts
  CBP       11-30   Weaknesses in CBP’s Payroll Reconciliation Process                                 11-19
  CBP       11-31   Insufficient Review of Manual Journal Entries                                      11-20
                    Deficiencies in the Review of the Department of Labor (DOL)
  CBP       11-32                                                                                      11-21
                    Chargeback Report

                    Insufficient Controls over Processing Mission Assignments
  FEMA      11-01                                                                  E
                    (MAs)
                    Deficiencies in Development and Application of Policies
  FEMA      11-02   Related to the Non-Grant, Non-MA, Non-System-Generated                             11-01
                    Accounts Payable Accrual
                    Non-Compliance with 5 CFR Part 2638 and 5 CFR Part 2638
  FEMA      11-03                                                                        F
                    Related to Ethical Requirements
  FEMA      11-04   Inability to Closeout Assistance to Firefighter Grants (AFG)                       11-02
  FEMA      11-05   Deficiencies in Development of MA Policies and Procedures                          11-03
                    Ineffective Controls over Processing and Monitoring
  FEMA      11-06                                                                  E
                    Obligations
                    Incomplete Implementation of Controls over the Recording of
  FEMA      11-07                                                                  E
                    Funding Transactions
                    Lack of Certain Documentation Related to Compliance with
  FEMA      11-08   the Improper Payments Elimination and Recovery Act of                              11-04
                    2010
                    Ineffective Controls over Tracking Grants Eligible for
  FEMA      11-09                                                                       H
                    Closeout
                    Financial Monitoring of Grants by the Grant Programs
  FEMA      11-10                                                                       H
                    Directorate
  FEMA      11-11   Inability to Link Systems to Significant Grant Programs                            11-05
                    Deficiencies in the Preparation and Review of the
                    Government Accountability Office (GAO) Financial Audit
  FEMA      11-12                                                                                      11-06
                    Manual (FAM) 2010 – Checklist for Federal Accounting (the
                    Checklist)
                    Monitoring of Audit Findings in Accordance with Office of
  FEMA      11-13                                                                       H
                    Management and Budget (OMB) Circular Nos. A-133 and A­



                                                        58

                                                                                                 Appendix A
                                 Department of Homeland Security
                    Crosswalk - Financial Management Comments to Active NFRs
                                        September 30, 2011


                                                                                       Disposition1
                                                                                       IAR            FMC
            NFR
Component                                    Description                          MW   SD       NC    No.
            No.
                    50, and Related Compliance Matters
                    Inaccuracy of Claims’ Loss Reserves at Selected Insurance
  FEMA      11-14   Companies that Participate in FEMA’s National Flood                               11-07
                    Insurance Program (NFIP)
                    Internal Control Deficiencies over Claims Paid at Selected
  FEMA      11-15                                                                                     11-08
                    Insurance Companies that Participate in FEMA’s NFIP
  FEMA      11-16   Lack of Formal Policies and Procedures in Various Areas             F
                    Deficiencies in the Monthly Spend Plan Reconciliation
  FEMA      11-17                                                                                     11-09
                    Preparation Process
                    Deficiencies Identified in the General Ledger Chart of
  FEMA      11-18                                                                                     11-10
                    Accounts and Transaction Codes
                    Improvements Needed in Review and Recording of Year-end
  FEMA      11-19                                                                                     11-11
                    MA Accrual
  FEMA      11-20   Ineffective Controls over Grants Management                        H
                    Budgetary Accounting Issues Identified in Journal Voucher
  FEMA      11-21                                                                 E
                    (JV) Testwork Through September 30, 2011
                    Improvements Needed in Management’s Review of Grant
  FEMA      11-22                                                                                     11-12
                    Data and Automated Reconciliations in Grant Accrual Models
  FEMA      11-23   Issues Identified in JV Testwork through September 30, 2011                       11-13

  FEMA      11-24   Compliance with the Prompt Payment Act                                            11-14
  FEMA      11-25   Improper Processing and Untimely De-Obligation of UDOs        E
                    Deficiencies in Verification and Collection of Performance
  FEMA      11-26   Measurement Data for the Annual Financial Report’s                                11-15
                    Management’s Discussion and Analysis
  FEMA      11-27   Deficiencies in the Grant Accrual Methodology                                     11-16
                    Deficiencies over the NFIP Treasury Information Executive
  FEMA      11-28                                                                                     11-17
                    Repository (TIER) JV Adjustments
                    Lack of communication regarding the existence of the
  FEMA      11-29   Department of Homeland Security (DHS)Office of Inspector                          11-18
                    General (OIG) Fraud Hotline


 FLETC      11-01   Capitalization of PP&E                                                            11-01


 USCIS      11-01   Lack of Controls over List-to-Floor Manual Processes          A
 USCIS      11-02   Deficiencies in the Timely Recording of Capital PP&E                              11-01
                    Lack of Policies and Procedures over Non-Itemized Invoices
 USCIS      11-03                                                                                     11-02
                    for PP&E
                    Inadequate and/or Inconsistent Supervisory Review of
 USCIS      11-04                                                                                     11-03
                    Personnel Actions
                    Inadequate Supervisory Review of the Intra-Departmental
 USCIS      11-05                                                                                     11-04
                    Eliminations Reconciliation
 USCIS      11-06   Untimely Change in Accounting Policies and Practices          A
                    Inadequate Data in the Claims 3, Claims 4, and MFAS
 USCIS      11-07                                                                 A
                    Systems
                    Inadequate Documentation and Untimely Capitalization of
 USCIS      11-08                                                                                     11-05
                    IUS



                                                         59

                                                                                                     Appendix A
                                 Department of Homeland Security
                    Crosswalk - Financial Management Comments to Active NFRs
                                        September 30, 2011


                                                                                          Disposition1
                                                                                          IAR              FMC
            NFR
Component                                   Description                              MW   SD        NC     No.
            No.

                    The Federal Financial Management System (FFMS) has the
   ICE      11-01                                                                    B
                    Ability to Make Duplicate Payments
   ICE      11-02   Failure to Record Payroll Accrual                                                      11-01
                    General Journal (GJ) Entry Not Approved by Office of
   ICE      11-03                                                                                          11-02
                    Financial Management (OFM) Director
                    Inadequate Internal Controls over Tracking and Removing
   ICE      11-04   Accumulated Depreciation in Sunflower Asset Management                                 11-03
                    System
                    Process for Identifying Contract-type Obligations for Contract
   ICE      11-05                                                                                          11-04
                    Closeout is Delayed
                    Inadequate Internal Controls over Tracking Leasehold
   ICE      11-06                                                                                          11-05
                    Improvement Projects
   ICE      11-07   Untimely Recording of Capitalized Asset Disposals                                      11-06
                    Reimbursable Agreements Not Timely Approved by Budget
   ICE      11-08                                                                                          11-07
                    Officer
   ICE      11-09   Number Not Used                                                       Not applicable
   ICE      11-10   Contracting Officer has Access to Approve Invoices in FFMS                             11-08
                    Incorrect Federal Employees’ Group Life Insurance
   ICE      11-11                                                                                          11-09
                    Deduction
   ICE      11-12   Untimely Review of Office of Government Ethics 278 Forms                               11-10
                    Insufficient Documentation for Federal Employees’
   ICE      11-13                                                                                          11-11
                    Compensation Act Claims
                    Federal Financial Management Improvement Act of 1996
   ICE      11-14                                                                                    K
                    (FFMIA) Compliance
   ICE      11-15   Inadequate Controls over New Hire Ethics Briefings                                     11-12
                    Subject to Availability of Funding Agreements not Obligated
   ICE      11-16                                                                                          11-13
                    in FFMS at Outset of Agreement
   ICE      11-17   Ineffective Internal Controls over Leave Audit Process                                 11-14
                    ICE Does Not Accrue Capitalized Costs Incurred at Year-end
   ICE      11-18                                                                                          11-15
                    for Software and Leasehold Improvement Projects
   ICE      11-19   Inadequate Internal Controls over Tracking of IUS Projects                             11-16


  MGT       11-01   Inadequate Internal Controls over PP&E                           C


                    Inadequate Internal Controls over Reporting of Government
  NPPD      11-01                                                                                          11-01
                    Furnished Equipment Asset Disposals
                    Subject to Availability of Funding Agreements Not Obligated
  NPPD      11-02                                                                                          11-02
                    in FFMS at Outset of Agreement
  NPPD      11-03   Potential Antideficiency Act Violation                                           N
  NPPD      11-04   Inadequate Internal Controls over Reporting of IUS Projects                            11-03
  NPPD      11-05   Inadequate Internal Controls over Reporting of Equipment                               11-04
  NPPD      11-06   Untimely Reporting of Leasehold Improvements                                           11-05




                                                         60

                                                                                                   Appendix A
                                 Department of Homeland Security
                    Crosswalk - Financial Management Comments to Active NFRs
                                        September 30, 2011


                                                                                        Disposition1
                                                                                        IAR              FMC
            NFR
Component                                   Description                            MW   SD        NC     No.
            No.
                    Inadequate Internal Controls over Reporting of CIP and
  S&T       11-01                                                                                        11-01
                    Buildings
  S&T       11-02   Untimely De-obligation of UDOs                                                       11-02
  S&T       11-03   Inadequate Controls over New Hire Ethics Briefings                                   11-03
                    Insufficient Internal Controls to Ensure Timely Reporting of
  S&T       11-04                                                                                        11-04
                    IUS in Development and Personal Property

                    Employee Record Management and Compliance with Human
  TSA       11-01                                                                                        11-01
                    Resource Related Laws
  TSA       11-02   Accrued Payroll Controls                                                             11-02
  TSA       11-03   Ineffective Controls at the Dallas Warehouse                   C
  TSA       11-04   Ineffective Controls over the Time and Attendance Process                            11-03
  TSA       11-05   PP&E Federal Air Marshals (FAMS)                               C
  TSA       11-06   PP&E Site Visits                                               C
  TSA       11-07   Policies and Procedures over the PP&E Process                  C
  TSA       11-08   GAO Checklist                                                                        11-04
  TSA       11-09   Incorrect Trading Partner Codes                                A
  TSA       11-10   UDO Process                                                                          11-05
  TSA       11-11   Number Not Used                                                     Not applicable
  TSA       11-12   Review of Journal Entries                                                            11-06
  TSA       11-13   Number Not Used                                                     Not applicable
  TSA       11-14   Accounts Payable Process                                                             11-07
  TSA       11-15   PP&E Provided by Client Issues                                 C
  TSA       11-16   Lack of Policies and Procedures over IUS                       C
  TSA       11-17   Warehouse Reconciliation to the General Ledger                 C
  TSA       11-18   Travel Authorization Approval                                                        11-08
  TSA       11-19   Accounting for Other Direct Costs                              C
  TSA       11-20   Accounts Receivable Controls                                   A
  TSA       11-21   Reporting PP&E                                                 C
  TSA       11-22   Undelivered Orders Documentation                                                     11-09
  TSA       11-23   Entity-Level Controls                                          A     F
                    Non-Compliance with the Debt Collection Improvement Act
  TSA       11-24                                                                                        11-10
                    of 1996
  TSA       11-25   Warehouse Controls                                             C
  TSA       11-26   Accounts Payable Balance                                       C
  TSA       11-27   Financial Reporting Deficiencies                               A
  TSA       11-28   Non-Compliance with FFMIA                                                      K
  TSA       11-29   Lease Accounting and Disclosure                                                      11-11
  TSA       11-30   Accounting for Advances and Prepayments                                              11-12



                                                        61

                                                                                               Appendix A
                                 Department of Homeland Security
                    Crosswalk - Financial Management Comments to Active NFRs
                                        September 30, 2011


                                                                                     Disposition1
                                                                                     IAR             FMC
            NFR
Component                                    Description                        MW   SD       NC      No.
             No.
  TSA       11-31   Undelivered Orders Documentation – FAMS                                          11-13


  USCG      11-01   Environmental Liabilities                                   D
  USCG      11-02   Heritage Assets                                             C
  USCG      11-03   Financial Management Oversight                                                   11-01
  USCG      11-04   Statement of Net Cost                                       A
  USCG      11-05   Fund Balance with Treasury (FBWT) Reconciliations                G
  USCG      11-06   Cumulative Results of Operations                            A
  USCG      11-07   UDOs                                                        E
  USCG      11-08   Legal Liability Reporting                                   D
  USCG      11-09   Accrued Payroll and Unfunded Leave Accrual (Military)       D
  USCG      11-10   Accrued Payroll and Unfunded Leave Accrual                                       11-02
  USCG      11-11   Financial Reporting Process                                 A
  USCG      11-12   Accounts Payable Accrual                                    D
  USCG      11-13   Financial Disclosure Reports                                                     11-03
  USCG      11-14   Purchase Requests/Commitments                               E
  USCG      11-15   Accounts Receivable                                         A
  USCG      11-16   Operating Materials and Supplies                                                11-04
  USCG      11-17   PP&E Non-CIP Assets                                         C
  USCG      11-18   Federal Managers’ Financial Integrity Act of 1982                          J
  USCG      11-19   PP&E Asset Records                                          C
  USCG      11-20   Human Resources Compliance with Laws and Regulations                             11-05
  USCG      11-21   Intragovernmental Transactions and Balances                 A
  USCG      11-22   PP&E: Repairables                                           C
  USCG      11-23   PP&E: CIP                                                   C
  USCG      11-24   Actuarial Medical Liabilities                                                    11-06
  USCG      11-25   Federal Managers’ Financial Integrity Act of 1996                          K
  USCG      11-26   PP&E: 4th Quarter Site Visit Observations                   C


                    Departmental Standards of Conduct and Procedural Guidance
  CONS      11-01                                                                                    11-01
                    for Financial Disclosure Report Filing
  CONS      11-02   Audited Financial Statements                                             K, M
                    Untimely Filing and Review of SF-278 Financial Disclosure
  CONS      11-03                                                                                    11-02
                    Reports
                    Non-Compliance with OMB Circular A-136 & Government
  CONS      11-04                                                                              O
                    Performance and Results Act
                    Preparation and Review of the Special-Purpose Financial
  CONS      11-05                                                                                    11-03
                    Statements and Notes
  CONS      11-06   Findings Related to the Disbursement Process                                     11-04



                                                        62

                                                                                                                Appendix A
                                      Department of Homeland Security
                         Crosswalk - Financial Management Comments to Active NFRs
                                             September 30, 2011


1
 Disposition Legend:
IAR	       Independent Auditors’ Report dated November 11, 2011
FMC	       Financial Management Comment
MW	        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD	        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC	        Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR	       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and System Functionality
C         Property, Plant, and Equipment
D         Environmental and Other Liabilities
E         Budgetary Accounting
F         Entity-Level Controls
G         Fund Balance with Treasury
H         Grants Management
I         Custodial Revenue and Drawback
J         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
K         Federal Financial Management Improvement Act of 1996 (FFMIA)
L         Single Audit Act Amendments of 1996
M         Chief Financial Officers Act of 1990 (CFO Act)
N         Antideficiency Act, as amended (ADA)
O         Government Performance and Results Act of 1993 (GPRA)




                                                              63

                                                                                                          Appendix B
                                      Department of Homeland Security
                                         Status of Prior Year NFRs
                                            September 30, 2011


                                                                                                     Disposition1
                                                                                                            Repeat
            NFR
Component                                          Description                                  Closed2 (2011 NFR
            No.
                                                                                                             No.)
  CBP       10-01   Untimely De-obligation of Inactive Obligations                                        CBP 11-24
                    FFMIA: Lack of System Integration and Compliance with the USSGL at the
  CBP       10-02                                                                                           CBP 11-06
                    Transaction Level Related to Inventory and Related Property, Net
                    ACS Limitations – Review of Prior Related Drawback Claims and
  CBP       10-03                                                                                           CBP 11-04
                    Selectivity for Underlying Consumption Entries
                    ACS Deficiencies over Non-entity Account Receivable and CBP’s Ability to
  CBP       10-04                                                                                           CBP 11-05
                    Effectively Monitor Collection Actions
  CBP       10-05   ACS Deficiency over the Accumulation of Claims Against a Drawback Bond                  CBP 11-03
  CBP       10-06   Number not used                                                                   Not applicable
  CBP       10-07   Improper Control Design of “Failed Disbursements Report”                      X
                    Lack of Controls over the Timely Processing of Goods and Services                      CBP 11-10
  CBP       10-08
                    Received                                                                               CBP 11-10b
                    Weakness in CBP’s Search for Unrecorded Accounts Payable Used to
  CBP       10-09                                                                                 X
                    Support the Accounts Payable Estimate
                    Weaknesses in the Monitoring and Review Process over the Completion of
  CBP       10-10                                                                                           CBP 11-11
                    FP&F Cases
  CBP       10-11   Weakness in the Review of Weekly/Monthly Entry Edit Reports                             CBP-11-13
                    Weaknesses in CBP’s Processes Related to Asset Additions and
  CBP       10-12                                                                                           CBP 11-07
                    Classification of PP&E Related Transactions
  CBP       10-13   Lack of Implementation of Controls over Determining Capital Leases                      CBP 11-12
  CBP       10-14   Deficiencies in the In-Bond Process                                                     CBP 11-16
  CBP       10-15  Weaknesses in CBP’s Processes Related to Asset Disposals                                 CBP 11-09
                   Weaknesses in CBP’s Processes Related to Asset Disposals as of July 31,
  CBP       10-15b                                                                                         CBP 11-09b
                   2010 and September 30, 2010
  CBP       10-16 Insufficient Retention Period for Documents that Support Drawback Claims                  CBP 11-02
                   Lack of Formal Policies over Review of Importer Self-Assessment Annual
  CBP       10-17                                                                                 X
                   Notification Letters
  CBP       10-18 Failure to Complete Supervisory Review of Drawback Claims                                 CBP 11-22
  CBP       10-19   Certification of Refund and Drawback Payments                                           CBP 11-01
  CBP       10-20   Detection of Excessive Drawback Claims                                                  CBP 11-15
  CBP       10-21  Failure to Review the D28 Alert Report                                                   CBP 11-14
                   Weaknesses in CBP’s Controls over Automated Journal Entries and
  CBP       10-22                                                                                           CBP 11-19
                   Misstatement of Liabilities Related to Injured Domestic Injuries
                   Deficiencies in CBP’s Controls over the Application of Benefits to C-TPAT
  CBP       10-23                                                                                 X
                   Partners
                   Weaknesses in CBP’s Process Related to Recording Construction Percentage
  CBP       10-24                                                                                           CBP 11-29
                   of Completion Amounts
                   Improper Settlement of Assets, Including Untimely Capitalization of Assets
  CBP       10-25                                                                                           CBP 11-08
                   from CIP
                   Improper Settlement of Assets, Including Untimely Capitalization of Assets
  CBP       10-25b                                                                                         CBP 11-08b
                   from CIP as of July 31, 2010 and September 30, 2010
  CBP       10-26 Oversight of Financial Reporting Issues                                         X
                   Intra-departmental Eliminating Journal Entries Related to Operating
  CBP       10-27                                                                                 X
                   Expenses Without Sufficient Supporting Documentation
                   Deficiencies in CBP’s Controls over Calculating the Validity and
  CBP       10-28                                                                                 X
                   Collectability of Non-Entity Taxes, Duties and Trade Receivables, Net




                                                          64

                                                                                                           Appendix B
                                      Department of Homeland Security
                                         Status of Prior Year NFRs
                                            September 30, 2011


                                                                                                      Disposition1
                                                                                                             Repeat
            NFR
Component                                            Description                                 Closed2 (2011 NFR
            No.
                                                                                                              No.)
  CBP       10-29   Management Oversight of PP&E                                                           CBP 11-27
                    Weaknesses Identified in the Bonded Warehouse and Foreign Trade Zone
  CBP       10-30                                                                                            CBP 11-25
                    Process and Procedures
  CBP       10-31   Inadequate Oversight of Trade Compliance Measurement                                     CBP 11-26
                    Lack of Segregation of Duties and Insufficient Review for Manual Journal
  CBP       10-32                                                                                            CBP 11-31
                    Entries
  CBP       10-33   Deficiencies in CBP’s Seized Inventory Process                                 X
  CBP       10-34   Improper Payment of Interest                                                   X
                    Insufficient Documentation of Statement on Auditing Standards (SAS) 70
  CBP       10-35                                                                                  X
                    Review
                    Weaknesses in CBP’s Processes Related to Asset Additions and
  CBP       10-36   Classification of PP&E Related Transactions as of July 31, 2010 and                     CBP-11-07b
                    September 30, 2010
  CBP       10-37   Number not used                                                                    Not applicable
  CBP       10-38   Number not used                                                                    Not applicable
  CBP       10-39   Untimely De-obligation of UDOs                                                           CBP 11-28
  CBP       10-40   Deficiencies in CBP’s Office and Air and Marine Inventory Process              X
  CBP       10-41   Inability to Support the Injured Domestic Industries Liability                 X


                   Internal Control Deficiencies over Claims Paid at Selected Insurance
 FEMA       10-01  Companies that Participate in FEMA’s National Flood Insurance Program                    FEMA 11-15
                   (NFIP)
                   Internal Control Deficiencies over Claims Paid at Selected Insurance
 FEMA       10-01a                                                                                          FEMA 11-15
                   Companies that Participate in FEMA’s NFIP
                   Inaccuracy of Claims’ Loss Reserves at Selected Insurance Companies that
 FEMA       10-02                                                                                           FEMA 11-14
                   Participate in FEMA’s NFIP
                   Inaccuracy of Claims’ Loss Reserves at Selected Write Your Own Insurance
 FEMA       10-02a                                                                                          FEMA 11-14
                   Companies that Participate in FEMA’s NFIP
 FEMA       10-03 Lack of Formal Policies and Procedures in Various Areas                                   FEMA 11-16
                   Non-Compliance with 5 CFR Part 2638 and 5 CFR Part 2638 Related to
 FEMA       10-04                                                                                           FEMA 11-03
                   Ethical Requirements
                   Internal Control Deficiencies Identified over Premiums Written at Selected
 FEMA       10-05                                                                                  X
                   Insurance Companies that Participate in FEMA’s NFIP
                   Internal Control Deficiencies Identified over Premiums Written at Selected
 FEMA       10-05a                                                                                 X
                   Insurance Companies that Participate in FEMA’s NFIP
 FEMA       10-06 Deficiencies in the Budget Execution Report Preparation Process                           FEMA 11-17
                   Deficiencies in Development and Application of Policies Related to the Non-
 FEMA       10-07                                                                                           FEMA 11-02
                   Grant, Non-MA, Non-System-Generated Accounts Payable Accrual
                   Control Deficiencies and Underlying Data Deficiencies Related to the Non-
 FEMA       10-08                                                                                  X
                   Grant, Non-MA, Non-System-Generated Accounts Payable Accrual
                   Deficiencies in the Preparation and Review of the GAO Financial Audit
 FEMA       10-09                                                                                           FEMA 11-12
                   Manual FAM 2010 – Checklist for Federal Accounting
                   Inherited Problems in Legacy Grants and Training’s (G&T) General Ledger
 FEMA       10-10 and Other Issues Noted in the Transaction Information Repository System                   FEMA 11-23
                   (TIER) to General Ledger Reconciliation as of June 30, 2010
                   Control Deficiencies Noted in the Financial Reporting Environment as of
 FEMA       10-11                                                                                  X
                   March 31, 2010




                                                          65

                                                                                                         Appendix B
                                     Department of Homeland Security
                                        Status of Prior Year NFRs
                                           September 30, 2011


                                                                                                       Disposition1
                                                                                                              Repeat
            NFR
Component                                          Description                                    Closed2 (2011 NFR
            No.
                                                                                                               No.)
                    Insufficient Office of the Chief Financial Officer (OCFO) Review of
 FEMA       10-12                                                                                   X
                    FEMA’s Legal Liability and Related Disclosure
                    Deficiencies Identified in the General Ledger Chart of Accounts and
 FEMA       10-13                                                                                         FEMA 11-18
                    Transaction Codes
 FEMA       10-14   Ineffective Controls over Processing Obligations                                      FEMA 11-06
 FEMA       10-15   Deficiencies in Development of MA Policies and Procedures                            FEMA 11-05
                                                                                                         FEMA 11-01
 FEMA       10-16   Ineffective Controls over Processing and Monitoring MAs
                                                                                                         FEMA 11-01a
 FEMA       10-17   Improvements Needed in Review and Recording of Year-End MA Accrual                   FEMA 11-19
 FEMA       10-18   Financial Monitoring of Grants by the Former Office of G&T                            FEMA 11-10
 FEMA       10-19  Ineffective Controls over Grants Management                                            FEMA 11-20
                   Lack of Certain Documentation Related to Compliance with the Improper
 FEMA       10-20                                                                                         FEMA 11-08
                   Payments Information Act of 2002, as amended
 FEMA       10-21 Budgetary Accounting Issues Identified JV Testwork through June 30, 2010                FEMA 11-21
                   Budgetary Accounting Issues Identified JV Testwork from July 1, 2010
 FEMA       10-21a                                                                                        FEMA 11-21
                   through September 30, 2010
 FEMA       10-22 Inability to Link Systems to Significant Grant Programs                                 FEMA 11-11
                   Failure to Identify and Assess Accounting Policies/Practices Not In
 FEMA       10-23                                                                                   X
                   Accordance with Generally Accepted Accounting Principles (Non-GAAP)
                   Improvements Needed in Management’s Review of Grant Data and
 FEMA       10-24                                                                                         FEMA 11-22
                   Automated Reconciliations in Grant Accrual Models
                   Deficiency Identified Related to the Preparation and Review of the
 FEMA       10-25                                                                                   X
                   Retrospective Reserve Analysis
 FEMA       10-26 Issues Deficiencies Identified in JV Testwork through June 30, 2010                     FEMA 11-23
                   Issues Deficiencies Identified in JV Testwork from July 1, 2010 through
 FEMA       10-26a                                                                                        FEMA 11-23
                   September 30, 2010
                   Monitoring of Audit Findings in Accordance with OMB Circular No. A-133
 FEMA       10-27                                                                                         FEMA 11-13
                   and No. A-50, and Related Compliance Matters
 FEMA       10-28 Lack of Supporting Documentation for Prompt Payment Sample Item                         FEMA 11-24
                   Deficiency in the Methodology Used to Calculate the Non-Current Portion of
 FEMA       10-29                                                                                   X
                   the Insurance Liability Estimate
 FEMA       10-30 Failure to Close Assistance to Firefighter Grants Timely                                FEMA 11-04
 FEMA       10-31   Deficiencies over the NFIP TIER JV Adjustments                                        FEMA 11-28
                    Untimely De-Obligation of UDOs and Accounting for Public Assistance
 FEMA       10-32                                                                                         FEMA 11-25
                    Grant Arbitration Cases in FY 2010


 FLETC      10-01   Management Review of Purchase Card Statements                                   X
 FLETC      10-02   FFMIA Compliance                                                                X
 FLETC      10-03   Accounts Payable Estimation Methodology & True-Up Analysis                      X


 USCIS      10-01   Inadequate and/or Inconsistent Supervisor Review of Payroll Transactions        X
 USCIS      10-02   Inadequate and/or Inconsistent Supervisor Review of General Journal Entries     X
 USCIS      10-03   Improper Expensing of Capitalized Equipment                                     X
                    Deficiencies in the Deferred Revenue Quality Assurance Process and the
 USCIS      10-04                                                                                         USCIS-11-07
                    Internal Control Environment



                                                        66

                                                                                                       Appendix B
                                     Department of Homeland Security
                                        Status of Prior Year NFRs
                                           September 30, 2011


                                                                                                     Disposition1
                                                                                                            Repeat
            NFR
Component                                           Description                                 Closed2 (2011 NFR
            No.
                                                                                                             No.)
                    Inadequate Supervisory Review of the Intra-Departmental Eliminations
 USCIS      10-05                                                                                       USCIS-11-05
                    Reconciliation
 USCIS      10-06   Leasehold Improvement Costs Were Not Capitalized Timely                             USCIS-11-02
 USCIS      10-07   Inadequate and/or Inconsistent Supervisor Review of Personnel Actions               USCIS-11-04


   ICE      10-01   Inadequate Internal Controls over Tracking Leasehold Improvement Projects            ICE-11-06
   ICE      10-02   Inadequate Internal Controls over Tracking IUS Projects                              ICE-11-19
   ICE      10-03   Ineffective Internal Controls over Leave Audit Process                               ICE-11-17
                    Ineffective Review Controls over the Preparation and Submission of the
   ICE      10-04                                                                                 X
                    Contingent Legal Liabilities Documentation
   ICE      10-05   Ineffective Internal Controls over SF-224 Process                             X
   ICE      10-06   Immigration Bonds were not Deposited in a Timely Manner                       X
   ICE      10-07   Untimely De-Obligation of UDO Balances                                               ICE-11-05
                    Subject to Availability of Funding Agreements not Obligated in FFMS at
   ICE      10-08                                                                                        ICE-11-16
                    Outset of Agreement
                    ICE Does Not Accrue Capitalized Costs Incurred at Year-End for Software
   ICE      10-09                                                                                        ICE-11-18
                    and Leasehold Improvement Projects
                    Accounts Payable Estimate Methodology Does Not Include a Comparison to
   ICE      10-10                                                                                 X
                    Actual Amounts
   ICE      10-11   FFMS has the Ability to Make Duplicate Payments                                      ICE-11-01
                    IPAC Payments are Being Made Prior to an Obligation Being Set Up in
   ICE      10-12                                                                                 X
                    FFMS
                    ICE was Unable to Support Undelivered Orders Balances in a Timely
   ICE      10-13                                                                                 X
                    Manner at Year-End
   ICE      10-14   FFMIA Compliance                                                                     ICE-11-14


  MGT       10-01   Inadequate Internal Controls over PP&E                                              MGT-11-01


  NPPD      10-01   Inadequate Internal Controls over Reporting of IUS Projects                         NPPD-11-04
  NPPD      10-02   Inconsistent Application of Property Capitalization Thresholds at NPPD        X
  NPPD      10-03   Untimely De-Obligation of UDOs                                                X
  NPPD      10-04   Potential ADA Violation                                                             NPPD-11-03
                    Subject to Availability of Funding Agreements Not Obligated in FFMS at
  NPPD      10-05                                                                                       NPPD-11-02
                    Outset of Agreement
  NPPD      10-06   Obligations Are Not Recorded in FFMS in a Timely Manner                       X
  NPPD      10-07   Payment Processed Without Contracting Officer Certification                   X


  S&T       10-01   Inadequate Internal Controls over Reporting of CIP and Buildings                     S&T 11-01
                    Insufficient Internal Controls to Ensure Timely Reporting of IUS in
  S&T       10-02                                                                                        S&T 11-04
                    Development and Personal Property


  TSA       10-01   Warehouse Inventory System and Procedures                                            TSA 11-25




                                                         67

                                                                                                      Appendix B
                                       Department of Homeland Security
                                          Status of Prior Year NFRs
                                             September 30, 2011


                                                                                                 Disposition1
                                                                                                        Repeat
            NFR
Component                                             Description                           Closed2 (2011 NFR
            No.
                                                                                                         No.)
  TSA       10-02   Compliance with Human Resources Related Laws                                      TSA 11-01
  TSA       10-03   Accrued Payroll Controls                                                            TSA 11-02
  TSA       10-04   Accounts Receivable Controls                                                        TSA 11-20
  TSA       10-05   Ineffective Controls at the Dallas Warehouse                                        TSA 11-03
  TSA       10-06   Non-Compliance with Debt Collection Improvement Act of 1996                         TSA 11-24
  TSA       10-07   Policies and Procedures over the PP&E Process                                       TSA 11-07
  TSA       10-08   Ineffective Controls over the Time and Attendance Process                           TSA 11-04
  TSA       10-09   PP&E Site Visits                                                                    TSA 11-06
  TSA       10-10   Fund Balance with Treasury Controls                                       X
  TSA       10-11   Lack of Policies and Procedures over IUS                                            TSA 11-16
  TSA       10-12   Accounts Payable Process                                                            TSA 11-14
  TSA       10-13   Incorrect Trading Partner Codes                                                     TSA 11-09
  TSA       10-14   Accounting for Other Direct Costs Incurred in FY 2009 and Prior                     TSA 11-19
  TSA       10-15   Untimely Update of Asset Transfers                                        X
  TSA       10-16   UDOs Documentation                                                                  TSA 11-22
  TSA       10-17   Entity-Level Controls                                                               TSA 11-23
  TSA       10-18   Number not used                                                               Not applicable
  TSA       10-19   Reporting PP&E                                                                      TSA 11-21
  TSA       10-20   Financial Reporting Deficiencies                                                    TSA 11-27
  TSA       10-21   Non-Compliance with the FFMIA                                                       TSA 11-28
  TSA       10-22   Number not used                                                               Not applicable
                    Grant Monitoring and Compliance with OMB Circular No. A-133, Audit of
  TSA       10-23                                                                             X
                    Sales, Local Governments and Nonprofit Organizations
  TSA       10-24   Number not used                                                               Not applicable
  TSA       10-25   Number not used                                                               Not applicable
  TSA       10-26   Review of JVs                                                                       TSA 11-12
  TSA       10-27   Review of Service Organizations’ Internal Controls                        X
  TSA       10-28   Number not used                                                               Not applicable
  TSA       10-29   Accounts Payable Balance                                                            TSA 11-26
  TSA       10-30   Lease Accounting and Disclosure                                                     TSA 11-29


  USCG      10-01   Heritage Assets                                                                    USCG 11-02
  USCG      10-02   Purchase Requests/Commitments                                                      USCG 11-14
  USCG      10-03   Statement of Net Cost                                                              USCG 11-04
  USCG      10-04   Contracting Officer Warrant Authority                                     X
  USCG      10-05   Environmental Liabilities                                                          USCG 11-01
  USCG      10-06   PP&E Non-CIP Assets                                                                USCG 11-17
  USCG      10-07   Vessels and Small Boats Useful Lives                                      X



                                                          68

                                                                                                        Appendix B
                                      Department of Homeland Security
                                         Status of Prior Year NFRs
                                            September 30, 2011


                                                                                                   Disposition1
                                                                                                          Repeat
            NFR
Component                                           Description                               Closed2 (2011 NFR
            No.
                                                                                                           No.)
  USCG      10-08   FFMIA                                                                              USCG 11-25
  USCG      10-09   Cumulative Results of Operations                                                     USCG 11-06
  USCG      10-10   Financial Disclosure Reports                                                         USCG 11-13
  USCG      10-11   PP&E Asset Records                                                                   USCG 11-19
  USCG      10-12   Legal Liability Reporting                                                            USCG 11-08
  USCG      10-13   Actuarial Post Employment Travel Liability                                  X
  USCG      10-14   PP&E: Repairables                                                                    USCG 11-22
  USCG      10-15   Intragovernmental Transactions and Balances                                          USCG 11-21
  USCG      10-16   PP&E: Fourth Quarter Site Visit Observations                                         USCG 11-26
  USCG      10-17   PP&E Construction in Progress                                                        USCG 11-23
  USCG      10-18   Financial Management Oversight                                                       USCG 11-03
  USCG      10-19   Permanent Change of Station – Separation/Retirement Presentation            X
  USCG      10-20   FBWT – Reconciliations                                                               USCG 11-05
  USCG      10-21   Suspense Accounts                                                           X
  USCG      10-22   Accrued Payroll and Unfunded Leave Accrual (Military)                                USCG 11-09
  USCG      10-23   Operating Materials and Supplies                                                     USCG 11-16
  USCG      10-24   Accrued Payroll and Unfunded Leave Accrual                                           USCG 11-10
  USCG      10-25   FY 2010 Actuarial Liabilities Restatement                                   X
  USCG      10-26   Accounts Payable Accrual                                                             USCG 11-12
  USCG      10-27   Undelivered Orders                                                                   USCG 11-07
  USCG      10-28   Financial Reporting Process                                                          USCG 11-11
  USCG      10-29   Federal Managers’ Financial Integrity Act                                            USCG 11-18
  USCG      10-30   Actuarial Medical Liabilities                                                        USCG 11-24
  USCG      10-31   Accounts Receivable                                                                  USCG 11-15
  USCG      10-32   FBWT and Unexpended Appropriations                                          X


  USSS      10-01   Adjustments in the USSS Counterfeit Footnote Support Schedule               X
  USSS      10-02   GAO Report Findings                                                         X


                    Tracking System for Ethics Training, Public Financial Disclosures, and
  CONS      10-01                                                                                        CONS 11-01
                    Confidential Reports
  CONS      10-02   Preparation of the Departmental Interim Legal Letter                        X
  CONS      10-03   Audited Financial Statements                                                         CONS 11-02
  CONS      10-04   Number not used                                                                 Not applicable
  CONS      10-05   Lack of SAS 70 Roll-forward Guidance                                        X
  CONS      10-06   Compliance with OMB Circular A-136                                                   CONS 11-04
  CONS      10-07   Statement of Net Cost (SNC) Methodologies and IT Systems Functionality               CONS 11-04
  CONS      10-08   Discrepancies Exist Between DHS Guidance and the TIER Analytical Report     X



                                                         69

                                                                                                                   Appendix B
                                            Department of Homeland Security
                                               Status of Prior Year NFRs
                                                  September 30, 2011


                                                                                                              Disposition1
                                                                                                                     Repeat
                 NFR
    Component                                             Description                                    Closed2 (2011 NFR
                 No.
                                                                                                                      No.)
      CONS       10-09   Number not used                                                                     Not applicable
      CONS       10-10   Non-Compliance with OMB Circular A-50, Audit Followup                              X
                         Preparation and Review of the Special-Purpose Financial Statements and
      CONS       10-11                                                                                              CONS-11-05
                         Notes

1
 KPMG was engaged to perform an audit over the DHS balance sheet and statement of custodial activity as of and for the year
ended September 30, 2011, and was not engaged to perform an audit over the statement of net cost, statement of changes in net
position, and statement of budgetary resources for the year ended September 30, 2011. In addition, we were engaged to follow-
up on the status of all active NFRs that supported significant deficiencies reported in our FY 2010 Independent Auditors’ Report.


2
  The scope of our audit was limited to follow-up on NFRs that supported a material weakness or significant deficiency as
reported in our Independent Auditors’ Report. All other NFRs, e.g., that described insignificant findings, and therefore presented
to DHS management as observations for consideration, were considered closed.




                                                               70

                                                                                              Appendix C
                         Department of Homeland Security

                            Management Response to the

                                Management Letter





                                                                     u.s. Dtpartmt nt or Homt land Stcllrity
                                                                     Washington. DC 20528




                                                                    Homeland
                                                                    Security
MEMORANDUM FOR:            Anne Richards
                           ~nt Inspector ~~dits

FROM:                        Larry~
                             Director, DHS Financial Management

SUBJECT:                     Management Letter for the DHS' FY 2011 Financial Statements
                             and Internal Control over Financial Reporting Audit


Thank you for the opportunity to comment on the Draft Management Letter for the FY 20 II
DHS Financial Statements and Internal Control over Financial Reporting Audit. We concur with
the report' s recommendations and remain fully committed to addressing our outstanding
financial management challenges. We appreciate your office's contributions and insights, and
we look forward to working with you as we implement our corrective actions and the DHS
Financial Accountability Act.

If you have any questions, please contact me at (202) 447-5216 or larry.bedker@dhs.gov.




                                           71

Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Deputy Chief Financial Officer
                      Chief Information Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
